Report No. SPO-2011-003                       March 3, 2011




                 Special Plans & Operations




     Assessment of U.S. Government Efforts to Train,
     Equip, and Mentor the Expanded Afghan National
                          Police
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.

                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202-4704
                                                                                 March 3, 2011

MEMORANDUM FOR SECRETARY OF DEFENSE
               DEPUTY SECRETARY OF DEFENSE
               CHAIRMAN, JOINT CHIEFS OF STAFF
               DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR
                 PARTNERSHIP STRATEGY AND STABILITY OPERATIONS
               COMMANDER, U.S. CENTRAL COMMAND
               COMMANDER, INTERNATIONAL SECURITY ASSISTANCE
                 FORCE-AFGHANISTAN/UNITED STATES FORCES-
                 AFGHANISTAN
               COMMANDER, INTERNATIONAL SECURITY ASSISTANCE
                 FORCE JOINT COMMAND
               COMMANDER, NORTH ATLANTIC TREATY ORGANIZATION
                 TRAINING MISSION-AFGHANISTAN/COMBINED SECURITY
                 TRANSITION COMMAND-AFGHANISTAN

SUBJECT: Assessment of U.S. Government Efforts to Train, Equip, and Mentor the Expanded
         Afghan National Police (Report No. SPO-2011-003)

    We are providing this final report for review and comment. This is the tenth in a series of
reports published by the Office of Inspector General’s Special Plans and Operations Directorate
that focus on the train and equip missions in Iraq, Afghanistan, and Pakistan. We considered
client comments on a draft of this report when preparing the final report.

   We request additional comments and information by April 4, 2011 as follows:

   •   Deputy Assistant Secretary of Defense, Afghanistan, Pakistan, and Central Asia-
       Recommendation 5 (redirected recommendation).

   •   Commander, International Security Assistance Force/U.S. Forces-Afghanistan-
       Recommendations 12.a, 12.b, 13.a, 13.b, 13.c, 14.a, 14.b, 21.a, 21.b, 22.c, 28.

   •   Commander, International Security Assistance Force Joint Command-Recommendations
       16.a, 18.a, 23.c.

   •   Commander, NATO Training Mission-Afghanistan/Combined Security Transition
       Command-Afghanistan-Recommendations 3.b, 4, 6.a, 6.b, 8, 10.a, 10.b, 17, 18.b, 19.a,
       23.a, 23.b.

   If possible, please send your comments in electronic format (Adobe Acrobat file only) to
spo@dodig.mil. Copies of your comments must have the actual signature of the authorizing
                       Executive Summary – Assessment of
                       Efforts to Train, Equip, and Mentor the
                       Expanded Afghan National Police

Who Should Read This Report?
Personnel within the Office of the Secretary of Defense, the Joint Staff, the U.S. Central
Command (USCENTCOM) and its subordinate commands in Afghanistan, the Military
Departments, and Agencies responsible for and engaged in training, mentoring, equipping, and
other aspects of the development of the Afghan National Police (ANP) 1 should read this report.

Synopsis
In late 2009, President Obama re-emphasized the importance of building the Afghan National
Security Forces (ANSF) as a priority objective of U.S. national security and military strategy in
Afghanistan. Previously, the Coalition’s primary focus had been to expand the Afghan National
Army (ANA). With additional resource support, the major thrust of the train and equip efforts
over the past year has been development of the ANP, which is recognized by the International
Security Assistance Force (ISAF) and the Coalition as essential to success in the
counterinsurgency (COIN) campaign. Since he assumed command of ISAF in 2010, General
Petraeus has organized and implemented an aggressive COIN strategy, which includes an
accelerated build-up of the ANSF.

Under ISAF, two new sub-commands have been created within the past 18 months--North
Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan (NTM-A/CSTC-A) and the ISAF Joint Command (IJC), both of which
have important responsibilities and capabilities with respect to growth of the ANP.
NTM-A/CSTC-A has the lead responsibility for managing the use of Title 10, U.S.C., fiscal
resources, training and equipping the police forces, and Ministry of Interior (MoI) capacity
building. IJC is responsible for improving the effectiveness of the ANP through partnering with
U.S. and other Coalition combat forces. It is of course essential that the respective contributions
of these two commands in support of ANP development be fully integrated.

As of July 2010, NTM-A/CSTC-A had exceeded the milestone set for expanding ANP forces,
reaching 109,000 personnel three months ahead of schedule. In contrast to the previous police
development model, which was based on the urgency of quickly recruiting and assigning police
personnel, the command has adopted a new model to build a more professional personnel base
by requiring all newly recruited ANP to be trained before being assigned. This new concept has
also avoided contributing to the legacy challenge posed by several tens of thousands of Afghan
Uniformed Police (AUP) currently serving who have never received basic training. In addition,


1
  For purposes of this DODIG report, the ANP consists of the Afghan Uniformed Police (AUP), the Afghan Border
Police (ABP), and the Afghan Civil Order Police (ANCOP).


                                                      i
NTM-A/CSTC-A has made an important commitment to improving the quality of training, not
just the quantity of personnel graduated and fielded.

The new recruit-train-assign force generation model is being reinforced by additional programs
aimed at improving retention. New recruits are now required to make a contractual commitment
to three years of service, or longer if they will be non-commissioned officers (NCOs) or officers.
Literacy training has been made mandatory for the police forces beginning in basic training.
Potential recruits are screened for illicit drug use and drug screening is periodically implemented
across the police forces. To further bolster recruitment, retention, and morale, additional
provisions have been made with respect to pay reform and quality of life initiatives.

IJC has been accelerating the professional development of the ANP through its partnering with
Coalition combat units and North Atlantic Treaty Organization (NATO) Police Operational
Mentor and Liaison Teams (POMLTs). With the deployment of additional U.S. Brigade Combat
Teams to Afghanistan in 2009 and 2010, it became feasible to partner U.S. tactical units more
widely with the Afghan police. Some U.S. Army and Marine tactical units are “embedded”
partners with ANP organizations, sometimes down to the precinct level with the AUP. This has
enabled intensive mentoring and training full time, and also demonstrated its effectiveness by
providing ANP personnel an every-day model of professional conduct and leadership to emulate.
Complementing this U.S./Coalition force partnering capability has been the recent deployment of
Law Enforcement Professionals (LEPs)-teams of civilian policing experts-who have joined the
partnered military units to improve ANP community policing skills.

There are still significant challenges that ISAF must address to be able to continue the
momentum of ANP force generation, development, and sustainment, so as to ultimately create a
sufficiently robust professional police force capable of independent operations. Given the
current state of ANP development, it will take time, sufficient resources, and strategic patience to
succeed in this endeavor.

One specific challenge is that of the nascent state of ANP logistical development, which, by
operational necessity and design, has lagged the overall growth of the ANP, making these forces
still heavily reliant on Coalition logistical support. Senior U.S. commanders recognize that the
current lack of this capability is untenable over the long-term and that the ANP requires an
intensive support effort by ISAF to build an ANP logistics system able to support the operational
needs of its forces. This will take a sustained effort by the Coalition, given the complexity of
building security force logistics systems, especially in a country at war. We note that, given the
mission to generate operational police forces, development of the ANP logistics capability is
proceeding according to established plans.

ISAF has taken the initiative to close the ANP logistics capability gap. Specifically,
NTM-A/CSTC-A has implemented a logistics infrastructure development plan that is building
supply depots across the regional commands, down to provincial level, that are closer to forward
deployed police units. Institutional capacity building of the MoI is proceeding on numerous
lines of development. Under new MoI leadership, it is expected to be capable of providing more
effective management support for the ANP including in the area of logistics. In addition, IJC




                                                 ii
intends to deploy its Support Battalions as partners in support of ANP logistical development; a
similar mentoring effort in Iraq achieved impressive results.

Progress in developing ANP logistical capacity cannot be maintained, however, without
establishing a more effective system of accountability and control with respect to ANP
equipment, supplies, and installations. The ability of the ANP to provide this oversight is
fundamental to being able to sustain the operational readiness of its forces, prevent fraud, waste,
and abuse of ANP materiel and infrastructure; and reduce corruption. Such a system would also
contribute to instilling a new cultural ethos of stewardship within the police forces. ISAF
recognizes the need to strengthen oversight capacity of the MoI and ANP and is taking proactive
measures to achieve that goal. ISAF has also identified a parallel need to improve its own
internal oversight capability with respect to U.S. appropriated funds used to supply equipment
and supplies to the ANP, but lacked adequate qualified personnel to do so.

ANP performance is also inextricably linked to the development of governance and rule of law
in Afghanistan. In a number of districts determined by ISAF to be critical to COIN operational
success, the AUP have been the only meaningful government presence. ANP effectiveness in
upholding the Rule of Law relies on the Government of the Islamic Republic of Afghanistan
(GIRoA) having in place an effective system of justice, whether it operates under formal or
informal legal procedures. For the government to gain the loyalty and support of the population,
it has to be able to provide protection for its citizens and prompt justice. Also key to building an
enduring, professional police force in Afghanistan is growing a base of competent, non-corrupt
leaders. Where strong leaders exist among the ANP, superior performance of their forces is also
evident. Additionally, it takes responsible, honest leaders to suppress police corruption, which
remains a problem at the level of the local police, who directly interface with the population and
impact support for GIRoA.

U.S. commanders have made leadership development within the ANP a top priority. They have
strongly supported MoI efforts to remove the incompetent and corrupt among the ministry and
the ANP, to promote MoI and ANP personnel based on performance, and to expand police
training programs focused on creating the next generation of police leaders. Continued success
in this endeavor will require a determined and protracted commitment from GIRoA, supported
by ISAF and the U.S. interagency, as well as continued progress with respect to the other key
challenges to police development.

Notable Progress
There are many noteworthy areas of progress identified in this report under four distinct focus
areas, discussed in detail in part one. To summarize, ANP development towards a transition to
lead security responsibility has advanced. This includes development of improved training and
mentoring strategies, increased recruiting, curbing attrition, establishing logistics infrastructure,
mentoring/training through partnering with U.S. forces, and the design of improved metrics to
track and guide ANP development.

Force Generation
There were 11 observations associated with the generation of forces. These observations focused
on improvements needed in the areas of force structure and equipping requirements and


                                                  iii
processes, support for more effective training/mentoring at the Ministry level and training
centers, as well as more intrinsic oversight of materiel provided to the ANP.

Force Development
Under this heading, there were nine observations associated with challenges to the development
of forces once recruited, trained, and assigned to units. They address areas such as logistics
weaknesses, Afghan security services cooperation and support, governance and rule of law, and
corruption. The need for additional personnel to provide oversight of Afghan Security Forces
Fund contracting was also addressed.

Force Sustainment
There were eight observations associated with the need to develop an ANP capable of self-
sustainment of its forces. These observations address areas that will assist in future sustainment
of newly generated and operational forces or, conversely, degrade them, if not properly managed
or developed. Specific issues raised include lack of effective oversight of U.S.-provided
equipment and other supplies, AUP personnel needs at the District/Precinct level, and pay issues
in the Afghan Border Police (ABP), among others.

Recommendations Table
Office of Primary                  Recommendations                    No Additional Comments
Responsibility                     Requiring Additional               Required at This Time
                                   Comment/Information
Deputy Assistant Secretary of
Defense, Afghanistan,                              5
Pakistan, and Central Asia
Deputy Assistant Secretary of
Defense, Partnership Strategy                                                        7
and Stability Operations
Vice Chairman, Joint Chiefs of
                                                                                    15.b
Staff
Commander, ISAF/U.S.               12.a, 12.b, 13.a, 13.b, 13.c,      1.a, 1.b, 2, 13.d, 15.a, 22.a,
Forces-Afghanistan                 14.a, 14.b, 21.a, 21.b, 22.c, 28   22.b, 27
Commander, ISAF Joint
                                           16.a, 18.a, 23.c
Command
                                                                      3.a, 9, 11.a, 11.b, 16.b, 19.b,
                                   3.b, 4, 6.a, 6.b, 8, 10.a, 10.b,
Commander, NTM-A/CSTC-A                                               20.a, 20.b, 22.d, 22.e, 24.a,
                                   17, 18.b, 19.a, 23.a, 23.b
                                                                      24.b, 25, 26

Please provide comments by April 4, 2011.




                                                 iv
Table of Contents
EXECUTIVE SUMMARY ........................................................................................................................ I
PART I – NOTABLE PROGRESS ........................................................................................................... 1
PART II – FORCE GENERATION ......................................................................................................... 7
    Observation 1. Process for Coordinating Operational Issues During Tashkil Development .................. 9
    Observation 2. Requirement for Additional Afghan National Police ................................................... 11
    Observation 3. Programs of Instruction at Afghan National Police Regional Training Centers .......... 13
    Observation 4. Untrained Afghan Uniformed Police ........................................................................... 17
    Observation 5. Shortage of Institutional Trainers ................................................................................. 21
    Observation 6. Ministry of Interior Inspector General Personnel Resources ....................................... 25
    Observation 7. Ministry of Defense Advisor Program ......................................................................... 27
    Observation 8. Afghan Uniformed Police and Afghan Border Police Armament................................ 29
    Observation 9. Machine Gun and Rocket Propelled Grenade Training for Afghan Uniformed Police
    ............................................................................................................................................................... 33
    Observation 10. Counter-Improvised Explosive Device Training and Equipment .............................. 35
    Observation 11. Shortage of ANP Medical Personnel at the Regional Training Centers..................... 37
PART III – FORCE DEVELOPMENT .................................................................................................. 41
    Observation 12. Afghan National Army Support of the Afghan National Police ................................ 43
    Observation 13. Governance/Rule of Law in Key Terrain Districts .................................................... 45
    Observation 14. Corruption in the Afghan Uniformed Police .............................................................. 49
    Observation 15. Oversight Related to Afghan Security Forces Fund Contracting ............................... 53
    Observation 16. Afghan National Police Logistics System .................................................................. 55
    Observation 17. Civilian Personnel Shortages at Afghan National Police Regional Logistics Centers
    ............................................................................................................................................................... 59
    Observation 18. Regional Logistics Centers/Provincial Supply Points ................................................ 61
    Observation 19. Stockage Levels at Regional Logistics Centers ......................................................... 63
    Observation 20. Equipment/Supplies Shipped to Regional Logistics Centers/Provincial Supply Points
    ............................................................................................................................................................... 65
PART IV – FORCE SUSTAINMENT .................................................................................................... 67
    Observation 21. Plan to Develop Afghan National Police Logistics Capability .................................. 69
    Observation 22. Oversight of U.S. Supplied Equipment ...................................................................... 71
    Observation 23. Afghan Uniformed Police Present for Duty Strength in Regional Command-East ... 75
    Observation 24. Pay for Afghan Border Police in Regional Command-East ....................................... 77
    Observation 25. Afghan National Police District and Precinct Facilities ............................................. 79
    Observation 26. North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
    Security Transition Command-Afghanistan Anti-Corruption Staff ...................................................... 81
    Observation 27. Ministry of Interior Inspector General Investigations ................................................ 83
   Observation 28. Afghan National Police Lessons Learned Process ..................................................... 85
APPENDIX A. SCOPE, METHODOLOGY, AND ACRONYMS...................................................... 89
APPENDIX B. SUMMARY OF PRIOR COVERAGE........................................................................ 93
APPENDIX C. CRITERIA—AFGHAN/U.S. POLICY AND DOD POLICY ................................... 97
APPENDIX D. ORGANIZATIONS CONTACTED AND VISITED ............................................... 103
APPENDIX E. MEMORANDUM FOR VICE CHAIRMAN, JOINT CHIEFS OF STAFF ......... 107
APPENDIX F. MANAGEMENT COMMENTS ................................................................................ 111
APPENDIX G. REPORT DISTRIBUTION ........................................................................................ 139
PART I – NOTABLE PROGRESS




            1
This Page Intentionally Left Blank




                2
Introduction
We found that the North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan (NTM-A/CSTC-A) and the International Security
Assistance Force Joint Command (IJC) together had made significant progress with the growth
and development of the Afghan National Police (ANP) since our review of the Afghan National
Army (ANA) and ANP in 2009. Although improvements are still needed in many areas of the
ANP train and equip mission, as highlighted later in this report, there were also many noteworthy
areas of progress identified.

Working Towards Transition
An important goal of the international security assistance force in Afghanistan is to successfully
transition security responsibility to the Government of the Islamic Republic of Afghanistan
(GIRoA). Through the efforts and leadership of the International Security Assistance Force
(ISAF), IJC and NTM-A/CSTC-A working at all levels of the Ministry of Interior (MoI) and
ANP, much progress has been made leading to the transfer of security responsibility:

    •   MoI took the lead in the annual, Solar Year (SY) 2 1390 Tashkil Commission review for
        the first time. (The Tashkil is the ANP document authorizing personnel and equipment,
        similar to a U.S. Army Modified Table of Organization and Equipment [MTOE].) This
        important step forward is a testament to the quality of mentorship provided by
        NTM-A/CSTC-A advisors and an indication that the ministry’s leaders are gaining both
        confidence and capability.

    •   The 22 Bunkers national
        munitions depot was once
        completely run by the
        Coalition Force (CF) and
        there was a minimum
        presence of ANP onsite.
        Since our last review,
        ANP now leads the effort
        and has primarily
        assumed operational
        control with assistance
        from CF personnel.
        During the teams visit to
        22 Bunkers, the tour and
        briefings were conducted
        by the onsite ANP                Figure 1. Connex Boxes at the Afghan National Police 22 Bunkers Depot
        officials through


2
  http://www.answers.com/topic/tropical-year--a SY is the period of time required for the earth to make one
complete revolution around the sun, measured from one vernal equinox to the next and equal to 365 days, 5 hours,
48 minutes, 45.51 seconds. http://scienceworld.wolfram.com/astronomy/VernalEquinox.html--the SY begins on the
vernal equinox date (near March 21 in the northern hemisphere) when night and day are nearly the same length and
the sun crosses the celestial equator.


                                                       3
       interpreters. Questions on procedures and processes were successfully answered and
       demonstrated by local ANP.

   •   1/10 MTN (Regional Command-North [RC-N]) Brigade Support Battalion, recognizing
       ANP challenges with getting supplied, formed a Logistics Military Training Team
       (LMTT) in April 2010 to work with ANP counterparts on MoI supply requisition
       processes. The LMTT developed a process to track logistics requests at each node of the
       supply system, and developed ANP confidence in its capability to manage effectively its
       own supply requests.

   •   Regional Command-Southwest (RC-SW) (1 Marine Expeditionary Force [MEF]) was
       aggressively implementing an ANP training sustainment and transition plan focused on
       an effort to unify activities and consolidate Afghan National Security Force (ANSF)
       development. Broader than just force generation, this plan covered all aspects of ANSF
       development that would lead to a successful and enduring transition of local community
       security responsibilities to ANP lead.

   •   The Regional Command-East (RC-E) Commander has prioritized efforts to support
       building capable and functioning district governance. He is building and upgrading
       district centers in key terrain districts using a strategy that concentrates CF and GIRoA
       resources, to include ANP resources, at key points of the counterinsurgency (COIN)
       campaign and which focuses on meeting the needs of the people.

New Training/Mentoring Strategies
ISAF Joint Command has successfully implemented new training/mentoring strategies to better
support ANP growth and focus toward the COIN campaign:

   •   Coalition Forces (CF) unit partnering is energizing ANP development; Police Mentoring
       Teams will now provide civil policing dimension with an additional emphasis on COIN
       to ensure a force that can defend itself and support the needs of the population. The
       European Gendarmerie Force (EGF) mission within Afghanistan, along with the Law
       Enforcement Professional program under the modified ANP training program, is having a
       significant impact on the training and quality of force.

   •   NTM-A/CSTC-A is organizing ANP Officer Candidate School training in Turkey; the
       program will send up to 500 ANP personnel to Turkey to train for six months. A second
       group of 500 ANP will follow based on success with the first group. CSTC-A, Japan,
       and Turkey will pay for the first group of ANP officers. It has not yet been determined
       who will pay for the second rotation. The objective is to expose the ANP to a working
       police force in a democratic Muslim country. Regional Command-Central (RC-C) is also
       working to establish a program to train ANP officers in Turkey for a year at a time.

   •   The Regional Training Center (RTC) in Regional Command-South (RC-S) exemplifies
       the value of outstanding U.S./Coalition partnering supporting impressive Afghan
       leadership. The 404th Zone Commander, with the support of RC-S mentors, has


                                                4
       embraced the training concept, working effectively with the regional police chiefs to
       grow instructors and police leaders and to improve the literacy rate.

Progress in Recruiting and Curbing Attrition
NTM-A/CSTC-A has curbed attrition by making fundamental changes in the force generation
mode with respect to pay, and other quality of life incentives. In addition, recruits are required to
contractually commit to a set length of service. These initiatives had enabled the Afghan
Government to both recruit and retain a more professional police force.

Progress has been made also by changing the force generation model from the previous “Recruit-
Assign” approach to a “Recruit-Train-Assign” methodology. This revised method ensures new
policemen receive formal training before performing their duties. To support this concept,
NTM-A/CSTC-A modified the basic training course to reduce the overall length by two weeks to
gain the required “glide slope” output for ANP force generation, but increased the intensity of
the training program. To ensure the training quality they extended the training day and added
literacy instruction for every policeman.

NTM-A/CSTC-A also worked with MoI to create pay incentives to increase the quality and
quantity of ANP. Under these programs, the MoI provided a living wage and monetary
incentives such as retention bonuses and hazardous duty pay.

ANP’s most difficult retention problem has been with the Afghan National Civil Order Police
(ANCOP). The capability of this force diminished due to continuous deployments to high threat
areas. To ease the burden and improve retention, NTM-A/CSTC-A in coordination with MoI
developed a deployment cycle of six weeks deployment, six weeks of rest, followed by six
weeks of training, preparation and redeployment. Attrition has declined and additional brigades
are being formed.

Improved Metrics
The Commander’s Unit Assessment Tool has provided an improved capability to assess Afghan
National Security Force (ANSF) performance. This newer version has added narrative
description and expanded assessment areas to qualify capability. Notable key areas added
recently to this assessment tool were with respect to Non-commissioned Officer professionalism
and anti-corruption.




                                                 5
This Page Intentionally Left Blank




                6
PART II – FORCE GENERATION




            7
This Page Intentionally Left Blank




                8
Observation 1. Process for Coordinating Operational Issues
During Tashkil Development
The annual NTM-A/CSTC-A/MoI Tashkil planning process for determining and authorizing
additional ANP forces lacks a formally established mechanism to ensure IJC mid-to long-term
operational considerations are jointly planned and incorporated into the NTM-A/CSTC-A force
development model. Nor is there a formal mechanism for making timely adjustments during the
Tashkil execution year in response to near-term COIN operational resource needs. (The Tashkil
is the ANP document authorizing personnel and equipment, similar to a U.S. Army Modified
Table of Organization and Equipment [MTOE].)

This occurred because there was no formalized process or doctrine developed to ensure that
operational requirements of the IJC and ANP are fully incorporated by the institutional planners
at the MoI and NTM-A/CSTC-A during the annual force development planning process.
Furthermore, there is no formalized process to address IJC near-term operational issues that
develop within the force generation execution year.

The result has been a process that generally addresses IJC requirements for additional ANSF
support on an ad hoc basis when they arise during the annual Command Plan cycle. This could
lead to delay or failure at a critical decision point in the operational aspects of the
counterinsurgency (COIN) campaign as key NTM-A/CSTC-A planners rotate out of country and
does not ensure that all interim operational needs can be met during the Tashkil year.

Applicable Criteria (See Appendix C, Number 9 and 13, for additional details.)
   •   Combined Security Transition Command – Afghanistan, “Campaign Plan for the
       Development of Afghan National Security Forces,” September 20, 2008.
   •   DOD Instruction 3000.05, “Stability Operations”, September 16, 2009.

Discussion
In several instances, operational leaders in both the IJC and the ANP shared their perception that
the MoI/NTM-A/CSTC-A annual Command Plan review process for force generation had not
been sufficiently synchronized with IJC multi-year operational planning and was not able to
quickly adjust to meet developing situations in the battle space. Examples included:

   •   The perception of an Afghan Uniformed Police (AUP) regional commander in RC-E,
       supported by his U.S. military mentor, that the Tashkil did not reflect the reality of the
       security situation on-the-ground, with relatively peaceful provinces and districts
       authorized the same number or more AUP than areas have recently become heavily
       engaged in the COIN fight.
   •   The opinion of several senior officers in the IJC that the established Tashkil for ANCOP
       brigades was overstated, monopolizing the ANP recruiting and training effort, when the
       more immediate operational requirement was to have more trained AUP in Key Terrain
       Districts (KTDs).
   •   The concern of both IJC and ANP commanders that the recent decision to largely
       eliminate private security companies in Afghanistan would generate an immediate
       requirement for more authorized ANP to protect government officials, key infrastructure,


                                                9
       and international aid organizations—a requirement not planned for in the annual Tashkil
       review process.
   •   A developing near-term requirement to provide the Afghan Border Police (ABP) heavier
       weapons than they were currently authorized.
   •   Disagreement between IJC and NTM-A/CSTC-A on the advisability of establishing a
       personnel category for trainees, transients, holdees, and students (TTHS).

The view shared by a senior NTM-A/CSTC-A official is that the process to address out-of-cycle
personnel and equipment requirements needed to be formalized. The NTM-A/CSTC-A official
noted that, in coordination with MoI, they had generally been able to address validated out-of-
cycle operational requirements brought to them by IJC and/or the ANP and were developing the
procedures for IJC participation in the annual force development planning process. While that
assertion appeared to be correct, success to date was brought about on an ad hoc basis, driven by
IJC and NTM-A/CSTC-A action officers who were intent on “making this happen,” despite the
lack of an institutionalized written process/doctrine that would preclude discovery learning every
time personnel rotate in and out of country.

Recommendations
1. Commander, International Security Assistance Force/U.S. Forces-Afghanistan, in
coordination with the International Security Assistance Force Joint Command and North
Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan:
  a. Develop a formal process to ensure that International Security Assistance Force Joint
Command operational considerations are incorporated, as appropriate, into the annual
requirements generation/force development/contracting process.
   b. Establish a systematic process for identifying, prioritizing, and approving significant
resource requests from the International Security Assistance Force Joint Command at regular
intervals during the annual Tashkil resource planning process.



Management Comments
ISAF concurred. ISAF has a process in place to ensure IJC operational considerations are
incorporated into the annual requirements generation. This is accomplished through the Solar
Year Command Plan Review (CPR) that is planned coordinated and executed by the Afghan MoI
with assistance from Coalition partners and mentors. This annual process is complemented by a
Program Management Review Process (PMR) that addresses emergent needs driven by
operational requirements in a dynamic and fluid COIN environment.


Our Response
ISAF comments were responsive. We believe that the current CPR and PMR processes meet the
intent of our recommendations. We will consider further evaluation of the effectiveness of these
processes during follow-on assessments of ANSF progress. No additional comments are
required.


                                               10
Observation 2. Requirement for Additional Afghan National
Police
The need for additional ANP has been identified as a priority requirement in some regional
commands to stem current or future increases in insurgent influence. Senior ANP officers at the
zone and provincial levels in RC-E and RC-N identified a pressing need for additional AUP
personnel to be assigned to their districts. This concern has been voiced in other regional
commands.

Numerous conditions can contribute to the existence and growth of an insurgency, to include an
overall shortage of effective police. The current Tashkil was short of the recommended ratio of
six policemen per 1000 population, as developed through ISAF analysis, in a country facing a
persistent COIN fight. NTM-A/CSTC-A calculations using regional population estimates
indicated a need to increase in three of the six zones country-wide which would require an
additional 34,000 police. Ongoing operations in RC-S and RC-SW, as well as the priority to
secure Kabul, have diverted the new force allocations, but the shortages in other region’s zones
remain.

As a result, police to population ratios were as low as 1.6 to1,000 in the eastern region, 2.3 to
1,000 in the north, and 3.6 to 1,000 in the west, well below the six to 1,000 ratio developed by
ISAF. The reduced ratio allows insurgent groups in these regions to grow in force and in
influence, undermine security, and damage confidence in the Government of the Islamic
Republic of Afghanistan (GIRoA).

Applicable Criteria (See Appendix C, Number 4, 13, 21, and 22, for additional details.)
      •   Army Field Manual 3-24, “Counterinsurgency,” December 2006.
      •   DOD Instruction 3000.05, “Stability Operations,” September 16, 2009.
      •   MoI Affairs, Department of Strategy, “Police Plan for SY 1389,” March 2010.
      •   MoI Afghan National Police Strategy, March 2010.

Discussion
Although ANP are now the force generation priority for NTM-A/CSTC-A and ISAF Joint
Command, AUP regional/zone police commanders in RC-E and RC-N informed the DODIG
team that they required more police in order to accomplish their COIN mission within their
respective zones.

Although police to population ratios are nearing the ISAF-developed six to 1,000 in RC-S and
RC-SW, the rest of the country varies from 1.6 to 1,000 to 3.6 to 1,000. Furthermore, this ratio
of police to population is only a portion of the recommended ratio of 20 to 25 per 1,000 for all
security forces (ANA, CF, and ANP) in the COIN environment 3—a ratio being met only in
selected areas of the country.

In response to pressure placed by U.S. and other ISAF forces on insurgents in RCs-East, South,
and Southwest, insurgent activity has been redirected to other regions. For example, IJC reports

3
    Army Field Manual 3-24, “Counterinsurgency,” December 2006, p. 1-13, para 1-67.


                                                       11
increased insurgent activity in RC-West (RC-W), the region of Afghanistan that has the lowest
police to population ratio.

Given the expanded threat posed by insurgent groups beyond their traditional strongholds in the
South and Southeast and without sufficient ANP forces, the ability of ISAF and the GIRoA to
protect the population and marginalize the insurgency groups that threaten the legitimate
government is in jeopardy.

Recommendation
2. Commander, International Security Assistance Force/U.S. Forces-Afghanistan, in
coordination with the International Security Assistance Force Joint Command, the North
Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan, and the Ministry of Interior, develop Solar Year 1390 Tashkil
requirements for appropriate increases in Afghan National Police strength to counter and roll
back insurgent advances, especially in Key Terrain Districts and Area of Interest Districts.



Management Comments
ISAF concurred. This recommendation was recently implemented during the Solar Year
Command Plan Review where the MoI approved an additional 10,000 Afghan Uniformed
Policemen in response to IJC and Afghan Zone Commanders request.


Our Response
ISAF comments were responsive; no additional comments are required.




                                               12
Observation 3. Programs of Instruction at Afghan National
Police Regional Training Centers
The training staffs at various ANP Regional Training Centers interpret and implement the ANP
basic training Program of Instruction (POI) differently.

The complex challenge of executing ANP training at 39 training facilities across Afghanistan,
supported by training cadres from multiple countries and policing backgrounds, a number of
whom were recently inserted to
support ANP expansion and upgrade
the quality of training, has led to
differing interpretations and
implementation of the ANP basic
training POI.

As a result, AUP officers reported to
their assignments trained to different
standards with inconsistent
understanding and expectations, and
differing opinions about their roles
as police officers. Consequently
they required retraining by the
assigned units to become effective       Figure 2. Afghan National Police Receive First Responder Training at
police officers.                         the Central Training Command


Criteria (See Appendix C, Number 1, 9, and 12, for additional details.)
   •   Afghanistan National Development Strategy Secretariat, “Islamic Republic of
       Afghanistan – Afghanistan National Development Strategy 1387-1391 (2008-2013) – A
       Strategy for Security, Governance, Economic Growth & Poverty Reduction.”
   •   Combined Security Transition Command – Afghanistan, “Campaign Plan for the
       Development of Afghan National Security Forces,” September 20, 2008.
   •   DOD Inspector General Report No. SPO-2009-007, “Assessment of U.S. and Coalition
       Plans to Train, Equip, and Field the Afghan National Security Forces,”
       September 30, 2009.

Discussion

Multiple Trainers. During our September 2009 assessment of the Afghan Security Forces,
we observed that the ABP received a different POI from two different contractors. In that report,
we recommended standardization of ABP training across Afghanistan. CSTC-A concurred with
this recommendation, reporting they had adopted and implemented a single, standardized POI for
the ABP. In July 2010, the AUP were being trained at 39 different training facilities by several
countries and different contractors. Based on the OIG Team’s interviews and observations,
different interpretations of the standard NTM-A/CSTC-A POI continues to be an issue.




                                                   13
The Coalition AUP trainers themselves come from many countries with diverse backgrounds,
including, but not limited to:

   •   Germans were teaching and mentoring at the National Police Academy,
   •   Italian Carabinieri were teaching and mentoring at the Central Training Center in Kabul,
   •   Canadians were training at the RTC in Kandahar,
   •   U.S. Marines were training AUP at Camp Leatherneck in RC-SW, and
   •   DynCorp and Xe contract personnel were providing training at almost all of the training
       facilities.

Each one of them brought different policing backgrounds and training methodologies to the
table, often based on their experience and organization/procedures/responsibilities of varying
police cultures in their home countries. Among the concerns identified were that some of the
mentors and trainers taught weapons and others did not. Some ANP recruits were trained
alongside ANA recruits, and received their personal weapon in basic training, while the rest did
not train at all with ANA, and received their personal weapon at their first assignment. In one
specific case, the POI being used by the contractor had not been vetted by NTM-A/CSTC-A at
all.

Afghans Concerned. Three different Afghan Generals from three different regions
reported non-standardized training was occurring. The MoI Admin and Support Chief of Staff
said he knew specifically that the ANP were not being trained with the same curriculum
everywhere and requested standardized training be implemented. The Commander of the
Central Training Center in Kabul repeated the same concerns, and the Commander of the RTC in
Kandahar stated that the ABP training in Spin Boldak was not appropriate at all and was more
akin to militia training rather than that required to create a professional police force. He wanted
to have the entire POI redone – “Start from zero.”

North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan Efforts. NTM-A/CSTC-A reported
that achieving unity of effort in support of common training standards was one of the challenges
of working with so many international partners. Although an International Police Coordination
Board had been established to discuss major policy and training issues, it had met infrequently.

NTM-A/CSTC-A officials said they were aware of the standardization challenge and that the
Commander made addressing the problem a priority. When DOD assumed responsibility for the
new training contract, it intended to create an improved program that would include a revised
POI. The new contract would enable the command to enhance its ability to achieve a
standardized, consistent teaching methodology. While acknowledging the ongoing effort in this
area, the OIG Team notes the process of adjusting and standardizing POI inputs into the ANP
training system is not yet complete.




                                                14
Recommendations
3. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan, in coordination with the Ministry of Interior:
  a. Standardize and improve, where necessary, the Program of Instruction across all Afghan
National Police training facilities.
  b. Conduct regular oversight visits to ensure compliance.



Management Comments
NTM-A/CSTC-A concurred. A new Afghan-centric and student-focused program of instruction
(POI) for Basic Training has been produced and will commence national roll out in January
2011. This new POI will address the pre-existing issues with inconsistent curriculum content,
methods of delivery, and provide a common national standard for police training.


Our Response
NTM-A/CSTC-A comments were partially responsive. Our review of the new POI, sent as an
attachment to its management comments, has led us to the conclusion that development of a
standardized POI has been completed at the NTM-A/CSTC-A/MoI level. However, we ask that
NTM-A/CSTC-A provide a copy of the plan for NTM-A/CSTC-A/MoI oversight that will ensure
compliance and standardized implementation.




                                              15
This Page Intentionally Left Blank




                16
Observation 4. Untrained Afghan Uniformed Police
The high percentage of assigned but untrained AUP in RC-N and RC-E negatively impacts the
ability of Coalition Force (CF) and GIRoA to achieve COIN objectives, and enables insurgent
influence to increase.

AUP force generation initiatives initially concentrated on rapidly fielding police to respond to
the insurgent threat. The concept of “Recruit, Assign, and Train” was necessary but flawed in
that it was difficult to get AUP personnel trained once they were assigned to operational police
organizations. The situation was compounded by the fact that:

     •   Many of AUP from the legacy force (pre-2001) had never been trained,
     •   Previous priority was on building and training the ANA,
     •   Current emphasis has been on building and training the Afghan National Civil Order
         Police (ANCOP), and
     •   Insufficient training capacity for both the current untrained and newly recruited AUP.

AUP elements are often unable to maintain institutional standards and may well lack the skills
and training necessary to fully understand and effectively enforce the law, which may undermine
Afghan public confidence in the Afghan government.

Applicable Criteria (See Appendix C, Number 4, 13, 21, and 22, for additional details.)
    •    Army Field Manual 3-24, “Counterinsurgency,” December 2006.
    •    DOD Instruction 3000.05, “Stability Operations,” September 16, 2009.
    •    MoI Affairs, Department of Strategy, “Police Plan for SY 1389,” March 2010.
    •    MoI Afghan National Police Strategy, March 2010.
Discussion
“I’d rather have no police than bad police, because bad police destroy local faith and confidence
in their government and push the locals to the Taliban. No matter how hard the Marines and
Afghan Army work to earn the public trust, bad police can unhinge those efforts in a heartbeat.” 4

A confirmation of the actual number of untrained AUP has proved elusive. However,
NTM-A/CSTC-A’s current estimate of untrained AUP across Afghanistan is 40 percent of the
total, which varies across regions.

NTM-A/CSTC-A has a number of institutional challenges to overcome. It seeks both balanced
development and growth concurrently. However, inefficiencies repeatedly enter the training
paradigm based upon available students, course loads, course delays, facility shortfalls, and lack
of qualified trainers. Lack of cooperation between MoI and Ministry of Defense (MoD)
regarding training centers often makes ‘dual-use’ school allocations/attendance difficult to
manage.


4
  E- mail to the Washington Post reporter Greg Jaffe: Marine Brigadier General Lawrence D. Nicholson:
http://usacac.leavenworth.army.mil/blog/blogs/reflectionsfromfront/archive/2010/03/12/the-afghan-national-police-
restoring-confidence.aspx.


                                                       17
Two existing programs currently attempt to address the issue of untrained AUP in the force. The
Focused Police Development Program is a six week training program for high threat areas that
                                                       requires Provincial police units, under
                                                       the direction of the Provincial Chief of
                                                       Police, to perform the police functions in
                                                       the District/Precincts while the untrained
                                                       AUP are being trained. It usually brings
                                                       the untrained AUP to an established
                                                       training center. The Directed Police
                                                       District Development Program is another
                                                       six week training course conducted in
                                                       two cycles within the district, but does
                                                       not require backfill, as half of the AUP
                                                       are trained at a time. This training
                                                       option brings the trainers to the untrained
                                                       AUP in their local area, usually a district.
    Figure 3. DODIG and NTM-A/CSTC-A Personnel with
    Afghan Cadre at the Afghan National Police Academy


To mitigate shortfalls in untrained AUP, IJC has reportedly identified plans to organize two more
Focused Police Development Program cycles in addition to those already scheduled. IJC has
identified three more Directed Police District Development cycles in addition to those already
scheduled.

This remains a considerable challenge, and NTM-A/CSTC-A is organizing a reformed training
program that involves integrating several courses of action to address the untrained police
conundrum.

The NTM-A/CSTC-A plan, although not yet complete and executed, involves: 5

     •   Apportioning up to 50 percent of available training slots for reform training until
         December 2010, when the training base will have to revert back to training new ANP
         personnel to meet police growth targets. This course of action applies to RC-E and
         RC-N.
     •   RC-S and RC-SW police elements are being given credit for ‘experience’ already gained
         during assignment/deployment; the plan is to provide only the 28 hours of AUP uplift
         training identified as critical to their professional development and mission.
     •   All Focused District Development (FDD) training will be considered reform training.
     •   The introduction of Mobile Training Teams using an off-cycle Tashkil process to
         accommodate benign situations where trainers can embed themselves in local
         communities. Mobile Training Team requirement: 34 provinces x 20 trainers = 680
         trainers. These teams will supposedly consist of Afghan trainers, but it was unclear how
         the MoI would provide them or prepare them to train other policemen.

5
 Briefing to LTG Caldwell on Untrained AUP: 9x .Power Point Slides o/a 27 Oct 2010, Camp Eggers, Kabul
Afghanistan.


                                                     18
Initiation of the pending Mobile Training Team plan may not occur until January 2011, with
implementation/execution sometime thereafter. Furthermore, it is not clear that this plan, if
executed, will be sufficient to expedite basic training of the untrained Afghan Uniformed Police
at a rate consistent with Afghan National Police Commanders’ and Regional Commanders’
needs, the insurgent threat, and International Security Assistance Force transition
plans/projections.

Recommendation
4. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan, in coordination with the Ministry of Interior,
develop a strategy and supporting plans to expedite basic training of the untrained Afghan
Uniformed Police at a rate consistent with Afghan National Police Commanders’ and Regional
Commanders’ needs, the insurgent threat, and International Security Assistance Force
transition plans/projections.



Management Comments
NTM-A/CSTC-A concurred with comments. Training untrained and already assigned policemen
has proven difficult and corrective efforts have had limited effect. NTM-A/CSTC-A and MoI
will continue to conduct reform training of already assigned policemen by using Provincial
Training Companies organized under the Afghan National Police Training General Command
(ANPTCG), excess capacity within the Afghan National Police training institutions, and
supporting the IJC-led Focused District Development program.


Our Response
ISAF comments were responsive. While having an estimated 40,000 untrained policemen in the
active force may prove problematic with respect to establishing a COIN capable professional
security force, we are aware of the challenges reform training is presenting to the Afghan
leadership and to ISAF. The multi-faceted approach presented by ISAF, complemented with the
Recruit-Train-Assign strategy, should eventually address this challenge. We request that NTM-
A/CSTC-A provide OIG with a copy of the ANPTCG reform training plan being developed in
conjunction with the SY1390 Tashkil.




                                               19
This Page Intentionally Left Blank




                20
Observation 5. Shortage of Institutional Trainers
NTM-A/CSTC-A does not have sufficient institutional trainers/mentors to keep pace with
current and anticipated ANP expansion. A significant percentage of the current and projected
shortfall relates to North Atlantic Treaty Organization (NATO) country obligations through
confirmed pledges that have not been met or not been made.

The expansion of the ANP has driven a requirement to expand commensurately institutional
training capacity, with an associated increase in the requirement for NTM-A/CSTC-A trainers.
This increased personnel requirement has not yet been met by new trainers/mentors provided by
NATO partner nations or from other Coalition country sources. In addition, at the time of the
team’s visit there was already a significant institutional trainer/mentor shortfall.

Until the issue is addressed, the ability to sustain the growth of the many training and logistical
centers, medical support organizations, accession schools, and other institutions that will require
additional trainer/mentor personnel remains uncertain; this could impact timely generation and
development of a quality police force.

Applicable Criteria
   •   NTM-A/CSTC-A training requirements: Combined Joint Statement of Requirements
       (CJSOR) V.10 (Request for Forces [RFF] Plan B) Confidential NOFORN, Titled:
       Analysis of Unfilled Requirements, 12 Oct 10 (classified document).

Discussion
Growing the ANSF forces requires an ever-expanding and dynamic landscape of training and
development programs from NTM-A/CSTC-A. The personnel expertise to provide the necessary
training and mentoring skills have been primarily provided by the U.S., but NATO and Coalition
partner countries have also played a significant resource role.

The requirement for ANP training/mentoring personnel has increased with the ongoing and
planned expansion of ANP training infrastructure and fielding of enabling organizations
necessary to continue building the police forces. Within recent months, construction was
completed on four of seven planned Regional Logistics Centers, and 17 new Provincial Supply
Point (PSP) were in various stages of development. More construction of PSPs was planned for
the coming fiscal year to provide depots in each of the 34 Provinces across Afghanistan.

Currently, there are 39 police training centers country-wide with a capacity to train 10,371 police
students at one time. Approximately 640 Coalition trainers and mentors support the police
training initiative. The goal for the near future is to double ANP capacity to train over 20,000
students simultaneously and to produce 134,000 trained police by October 2011.

NTM-A/CSTC-A has four ways to request/source additional required personnel:
  1. Joint Manning Document (U.S. military process),
  2. Request for Forces process (U.S. military process),
  3. Crisis Establishment (CE) (NATO manpower document) , and
  4. NATO Combined Joint Statement of Requirements (CJSOR).



                                                21
NTM-A/CSTC-A staff and institutional trainers and mentors have been sourced through the CE
and CJSOR, and CSTC-A through the Joint Manning Document (JMD) and RFF. There is also
an ability to get commitments for trainers outside of these formal processes, such as, bilateral
agreements and non-NATO contributing sources.

There are four ANSF categories of additional trainers/mentors required by NTM-A/CSTC-A
over the next 18 months to build the ANSF:
   1. Police
   2. Air Force
   3. Medical, and
   4. Army.
The mix and availability of specialized skills required complicates obtaining forces from Troop
Contributing Nations (TCNs), which do not have them in abundance. In addition, NTM-A/
CSTC-A needs personnel with the right experience to ensure these training and mentoring
programs succeed.

The current gap in NTM-A/CSTC-A trainers was created by a shortfall in the personnel
contributions of TCNs managed through the NATO Combined Joint Statement of Requirements
(CJSOR) process, exacerbated by the increasing requirement for institutional trainers. In
October 2010, the command was short 573 CJSOR trainers 6 and projected a shortage of 920
CJSOR trainers by March 2012. 7

This forecasted shortfall is based on several factors:

    •   The scheduled completion of training facilities now under construction/expansion,
    •   The opening of new ANP training institutions, such as NCO and staff officer colleges, the
        Armed Forces Medical Academy of Science, the Wardak ANCOP national training
        center facility, and,
    •   The building of logistics centers country-wide to support the ANP.

NTM-A/CSTC-A was pursuing all options to meet its training/mentoring personnel needs
through the CJSOR process, as well as from non-NATO contributing nations, in order to achieve
its goal of strengthening the quantity and quality of the ANSF. One avenue to mitigate the
future training/mentoring shortfall being pursued was to obtain commitment from NATO
countries to convert their combat forces being withdrawn into mentoring/training force pledges.




6
  NTM-A/CSTC-A Command Update Brief, CJ1, slide 1, 2 Oct 10.
7
  “Report on Progress Toward Security and Stability in Afghanistan – Report to Congress in accordance with
sections of the National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181), as amended,”
November 2010, p. 20, Table 1.


                                                      22
Recommendation
5. Deputy Assistant Secretary of Defense, Afghanistan, Pakistan, and Central Asia, in
coordination with the Chairman, Joint Chiefs of Staff and Commander, International Security
Assistance Force/U.S. Forces-Afghanistan, develop a Department of Defense/Department of
State coordinated plan to revitalize the Combined Joint Statement of Requirements process to
fill trainer/mentor gap crucial to sustain Afghan National Police force generation plans.


Management Comments
This recommendation was originally written with the Commander, ISAF, as the office of
primary responsibility. ISAF non-concurred, noting that they had exhausted all in-country/in-
theater capability to address the shortfall of international trainers.

Our Response
We redirected the recommendation to the Deputy Assistant Secretary of Defense, Afghanistan,
Pakistan, and Central Asia. This recommendation is similar to one made by the Government
Accountability Office (GAO) in report GAO-11-66, “Afghan Army Growing, but Additional
Trainers Needed; Long-term Cost Not Determined.” DOD concurred with the GAO
recommendation. We ask that the Deputy Assistant Secretary of Defense, Afghanistan, Pakistan,
and Central Asia respond to Recommendation 5, specific to the ANP, in this final report.




                                              23
This Page Intentionally Left Blank




                24
Observation 6. Ministry of Interior Inspector General
Personnel Resources
The MoI Inspector General (IG) Directorate strength has not been adjusted to provide an
oversight capability consistent with the responsibilities of the MoI and growth of the ANP.

This occurred because the increase in the number of authorized/assigned personnel at the MoI
IG Directorate has not kept pace with the expanding number of personnel in the ANP. In
addition, the MoI IG has been assigned new responsibility for subordinate MoI IGs at the
regional headquarters.

As a result, the MoI IG Directorate has not been able to develop its capabilities in line with its
overall mission function and responsibilities, most importantly fighting fraud, waste, abuse, and
other types of corruption.

Applicable Criteria (See Appendix C, Number 9 and 12, for additional details.)
   •   Combined Security Transition Command – Afghanistan, “Campaign Plan for the
       Development of Afghan National Security Forces,” September 20, 2008.
   •   DOD Inspector General Report No. SPO-2009-007, “Assessment of U.S. and Coalition
       Plans to Train, Equip, and Field the Afghan National Security Forces,” September 30,
       2009.

Discussion
IG Progress. Over the last year, the MoI IG Directorate has made notable progress.
Representatives from the Directorate served as a member of the Law Enforcement and
Corruption Commission, which meets twice a week to discuss problems and priorities and
includes members from the European Union Police, the U.S. Federal Bureau of Investigation.
The MoI IG Directorate investigated approximately 2,400 cases, with more than 450 of them
resulting in a fine or disciplinary action against police officers and government officials. Of the
2,400 plus cases, 64 of them came from the six Mobile Anti-Corruption Teams, which were
stood-up in November 2009. Furthermore, government auditors at the AUP regional
headquarters have been realigned under the IG Directorate to improve the independency of
audits they perform. Reportedly, the MoI IG Directorate auditors and inspectors discovered
$86M in missing funds of which $61M had been recovered. During our assessment in 2009, the
MoI IG indicated he could not provide oversight to all 34 provinces. As of October 2010, the
MoI IG reported that he had at least a limited capability in all provinces.

Personnel Strength. The MoI IG Directorate has grown from approximately 131 positions
in September 2009 to approximately 225 positions on the current Tashkil in October 2010, with
131 on staff at MoI. The rest perform audits and investigations in the districts and provinces.
Although the MoI IG Directorate’s strength has grown, it has not kept pace with the expanding
ANP force and the prevalent levels of corruption. The MoI IG indicated he still required an
additional 300 inspection/evaluation personnel. The SY 1389 Tashkil authorized 300
professional standards inspectors for nation-wide inspections, but they had not yet been filled.
An Afghan MoI initiative to employ 300 former generals to conduct nation-wide inspections
could provide reinforcements but not on a permanent basis.


                                                25
The ANP has grown from 95,000 in October 2009 to 107,000 in July 2010 and is expected to be
at 134,000 by October 2011. Although MoI IG Directorate manpower has grown significantly
since October 2009, it still has not been adequately adjusted to provide an effective oversight
capability consistent with the greater than anticipated expansion of the ANP.

Mentors and Trainers. In the DODIG September 2009 report addressing the Afghan
National Security Forces, it was noted that CSTC-A then provided the MoI IG Directorate one
full-time civilian mentor and a part-time 0-5 (Lt. Colonel) from CSTC-A. The report
recommended that the Commander, CSTC-A provide sufficient additional mentors to enable
MoI IG Directorate to cope with its demands. The CSTC-A Commander concurred with this
recommendation.

In August 2010, the MoI IG Directorate had seven mentors in place, including the
NTM-A/CSTC-A IG, plus two civilians and four contractors.

Recommendations
6. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan, coordinate with and assist the Ministry of Interior
to:
  a. Conduct a manpower study of the Ministry of Interior Inspector General Directorate to
determine the personnel necessary for the office to accomplish its mission.
  b. Include the results of the manpower study, as appropriate, in developing the Solar Year
1390 Tashkil for the Ministry of Interior Inspector General office.



Management Comments
NTM-A/CSTC-A concurred with comments. NTM-A/CSTC-A does not have the capability to
perform a manpower study at this time. The CJ7 and CJ1 are expecting additional personnel in
the next few months that will provide this capability. NTM-A/CSTC-A requested OIG provide
expert advice on proper size of the IG organization in ANSF. NTM-A/CSTC-A will provide
manpower adjustment during the next CPR which will begin in April 2011.

Our Response
OIG involvement as a subject matter expert for the manpower study would be inappropriate
under the Quality Standards for Inspections and Evaluations. This direct involvement would
impact the independence of our organization for follow-on assessments of the command in this
area. We recommend that the command request assistance from CENTCOM, Joint Staff, or
OSD Staff to work with the CJ1 and CJ7 when conducting the study or that expertise is obtained
using existing advisor contracting vehicles. OIG requests a copy of the manpower analysis once
it is completed for the NTM-A/CSTC-A staff.




                                               26
Observation 7. Ministry of Defense Advisor Program
Commander, NTM-A/CSTC-A requires additional DOD/OSD personnel resource support from
the Ministry of Defense Advisors (MoDA) program to fortify the MoD and MoI institutional
development mission.

NTM-A/CSTC-A lacks the required subject matter expertise to develop key Afghan security
ministerial functions, which is a priority mission focus. The number and type of unique skills
necessary to develop basic MoD and MoI functional capability has not been available, in general,
from the U.S. military services. Neither has the expertise provided by contractor services been
sufficient to build quickly enough MoD and MoI effectiveness in certain critical areas.

Without additional MoDA support, the command will be delayed in the capacity development of
the MoD and MoI, which could jeopardize timely accomplishment of key COIN objectives.

Applicable Criteria (See Appendix C, Number 11, 13, and 16, for additional details.)
   •   DOD Directive 1404.10, “DOD Civilian Expeditionary Workforce,” January 23, 2009.
   •   DOD Instruction 3000.05, “Stability Operations”, September 16, 2009.
   •   DOD Instruction 5000.68, “Security Force Assistance (SFA),” October 27, 2010.

Discussion
U.S. government expertise in the area of building the capacity of the MoD and MoI generally lies
with civil service professionals on the staff of the Office of the Secretary of Defense. This has
been fortified by NTM-A/CSTC-A with contractor services and military personnel who often do
not possess the unique institution building skill sets required.

The Ministry of Defense Advisor (MoDA) program is specifically designed to forge long-term
relationships that strengthen the defense or interior ministry of a host nation and partner state.
This program matches senior U.S. Department of Defense civilians to mentor foreign
counterparts in similar defense specialties.

In this way, the MoDA program helps partner countries, consistent with U.S. national security
objectives, build core competencies that enable effective and accountable defense and interior
ministries. The initial personnel support provided by the program to the NTM-A/CSTC-A
command has been highly effective in supporting capacity building with respect to MoD and
MoI. The extensive seven week pre-deployment training cycle provided volunteers in the
MoDA program has reportedly enabled them to arrive with the necessary capability to adjust
quickly and perform well the various ministerial mentor responsibilities assigned them,
according to the Commander, NTM-A/CSTC-A.

MoDA advisor expertise includes:

   •   Defense Policy and Strategy,
   •   Force Planning and Resource Allocation,
   •   Personnel and Readiness Management,
   •   Civil-Military and Interagency Operations,


                                                 27
   •   Doctrine, Training and Education,
   •   Acquisition and Procurement, and
   •   Logistics and Infrastructure Management.

NTM-A/CSTC-A regards their MoDA subject matter experts as invaluable augmentation assets
to be able to achieve more rapid and successful MoD and MoI capacity development. Based on
their already demonstrated mentoring contributions, the command seeks to build upon this
success by acquiring additional personnel, which do not count against the Authorized Force
Management Level established by the Secretary of Defense for U.S. Forces in Afghanistan.
CSTC-A CJ-3 is actively working coordination issues to request approximately 100 additional
MoDA personnel to support key mentoring positions within the MoD and MoI. This request will
require the approval of the Deputy Assistant Secretary of Defense, Partnership Strategy and
Stability Operations.

Recommendation
7. Deputy Assistant Secretary of Defense, Partnership Strategy and Stability Operations,
provide additional personnel to support the Commander, North Atlantic Treaty Organization
Training Mission-Afghanistan/Combined Security Transition Command-Afghanistan’s,
request for a significant reinforcement of Ministry of Defense Advisor personnel.


Management Comments
The Deputy Assistant Secretary of Defense, Partnership Strategy and Stability Operations
concurred with the recommendation to provide additional MoDA Advisors to NTM-A/CSTC-A
as needed. They have agreed to support the NTM-A/CSTC-A request for 100 advisors and are
providing them on an expedited basis.


Our Response
The comments from the Deputy Assistant Secretary of Defense, Partnership and Stability
Operations were responsive. No other additional comments are required.




                                             28
Observation 8. Afghan Uniformed Police and Afghan Border
Police Armament
AUP in districts and precincts and ABP in border posts were reportedly unable to defend
themselves against better armed and well-organized insurgents.

AUP and ABP commanders and their advisors indicated that their forces were generally unable
to stand-up to insurgent firepower, delivered during well-planned and executed light infantry
type assaults. Their Tashkil-authorized AK-47 rifles and 7.62 mm Kalashnikov PKM machine
guns, and rocket propelled grenades (RPGs) often do not provide the necessary capability to
match insurgent arms, which include heavier, long-range machine guns, more RPGs, and
mortars.

As a result, the AUP and ABP are unable to adequately defend themselves when attacked. The
ANP as a whole have been incurring three to four times the killed in action of the ANA, while
some of their headquarters facilities and field positions have been overrun several times.

Knowing they are outgunned reinforces the tendency among both the AUP and ABP to remain in
their station houses, fixed outposts, and border posts, rather than to proactively patrol their battle
space, effectively ceding territory and influence to the enemy.

Applicable Criteria (See Appendix C, Number 4, 16, and 26, for additional details.)
   •   Army Field Manual 3-24, “Counterinsurgency,” December 2006.
   •   DOD Instruction 5000.68, “Security Force Assistance (SFA),” October 27, 2010.
   •   “Report on Progress Toward Security and Stability in Afghanistan – Report to Congress
       in accordance with sections 1230 of the National Defense Authorization Act for Fiscal
       Year 2008 (Public Law 110-181), as amended,” November 2010.

Discussion
In the latter stages of the COIN clear, hold, and build strategy, once the security environment is
stable, the AUP function as community police, or beat cops, and the Tashkil-authorized AK-47s
weapon and light machine guns issued to them will be sufficient armament. Currently, however,
the AUP in many districts operate in a fluid security environment in which they have to be
prepared to defend themselves in the kinetic fight--sometimes in the latter part of the COIN
strategies’ clear phase and definitely in the hold stage when they are the only security force left.

When they are attacked by insurgents, the AUP often cannot defend themselves, or the
population they are supposed to protect. The ABP face a similar situation along the border, often
operating in geographically isolated border posts, especially in the very difficult terrain in the
northeast and east. For example, the ABP unit at Barg-e-Matal in RC-E, unable to be quickly
reinforced because of distance and terrain, has been overrun several times, suffering significant
casualties.

The ANP forces cannot rely on timely support from the ANA. The AUP may benefit from Army
kandak (Afghan equivalent of a battalion) reinforcement in the initial hold phase of an operation
in their districts, but the ANA will not remain for long, according to a number of reports. Based


                                                 29
on numerous reports and interviews, it appeared that ANA units do not generally commit
themselves to defending fixed positions, preferring a more mobile operational role, and may not
be committed to supporting the AUP long enough to secure a police district. Neither does the
Army appear to be playing a significant role supporting ABP units.

AUP are authorized AK-47s as their personal weapon and are receiving training and
qualification on it at basic training. A few RPG launchers are also authorized at the District and
Precinct level, but, based on interviews and observations by the OIG team, there is a shortage of
actual RPG rounds at those levels. ABP kandaks were similarly equipped. However, the enemy
insurgents they have encountered have been more heavily armed with better quality AK-47s,
robustly supplied rocket-propelled grenades (RPGs), heavy machine guns, mortars, and other
weapons. The insurgents also benefited from the advantage of executing well-designed and
coordinated surprise attacks against fixed police positions and an inferior police force presence.

While plans have been made to provide a heavy weapons company to each ABP zone
commander, it is not clear yet whether they will be able to quickly enough reinforce isolated
ABP outposts under attack across the broad front of territory that an ABP zone encompasses.

While additional training and ammunition would prove useful, every AUP and ABP commander
with whom we consulted believed that they required greater firepower and range to defend
against insurgent attacks and be able to contribute to the defeat of the enemy.

Recommendation
8. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan, in coordination with International Security
Assistance Force Joint Command and the Ministry of Interior/Afghan National Police,
determine if additional heavy weapons should be added to the Tashkil of the Afghan
Uniformed Police, especially in Key Terrain Districts and Area of Interest districts, and to the
Afghan Border Police along the borders.



Management Comments
NTM-A/CSTC-A concurred with comments. NTM-A/CSTC-A and IJC have already begun
developing this capability through material and organizational solutions in the command plan
review process for fielding of heavy weapons companies in SY 1390. However, the core issue of
this observation is joint ANA and ANP operations. The guidance already exists that directs
ANSF joint operations and NTM-A/CSTC-A is working to refine and further develop joint
doctrine. NTM-A/CSTC-A and IJC are conducting a complementary effort to hedge more joint
cooperation by working with the fielded forces, as well as the ministerial and general staff
leadership.

Our Response
NTM-A/CSTC-A comments were responsive. We agree that the core issue revolves around
ANA and ANP cooperation and joint operations. Please provide the OIG with existing



                                                30
guidance/doctrine that covers joint ANA/ANP operations. When refined/additional joint
ANA/ANP doctrine is developed, we request a copy of that documentation, as well.




                                             31
This Page Intentionally Left Blank




                32
Observation 9. Machine Gun and Rocket Propelled Grenade
Training for Afghan Uniformed Police
AUP basic training does not include firing PKM 8 machine guns and RPG’s, even though those
weapons are in the Tashkil inventory at provincial, district and precinct police stations.

This results from several issues:
   • Some AUP RTCs do not have ranges that can support RPGs or PKM live fire,
   • There is no PKM or RPG ammunition available at the RTC to support live fire, and
   • The Tashkil does not authorize those weapons at all districts and precincts.

As a result, the AUP in most provinces, districts, and precincts are not trained on these weapons,
even though they are in the inventory at most AUP locations. The police may have to fire them
for the first time while in a combat situation. As a consequence, AUP are unable to use
effectively Tashkil authorized and provided weapons that would enable more effective defense
against insurgent attacks.

Criteria (See Appendix C, Number 3, 4, 16, and 26, for additional details.)
      •   Army Field Manual 3-07.1, “Security Force Assistance,” May 1, 2009.
      •   Army Field Manual 3-24, “Counterinsurgency,” December 2006.
      •   DOD Instruction 5000.68, “Security Force Assistance (SFA),” October 27, 2010.
      •   “Report on Progress Toward Security and Stability in Afghanistan – Report to Congress
          in accordance with sections 1230 of the National Defense Authorization Act for Fiscal
          Year 2008 (Public Law 110-181), as amended,” November 2010.

Discussion
When asked about RPG and PKM live fire training, Afghan and U.S./ Coalition trainers at the
RTCs cited the issues above as the reason this training was not conducted. The Afghan trainers
often stated that the RPG and PKM live fire training was not provided until the new policeman
arrived at his posting. However, AUP commanders in the field report that they have insufficient
or no ammunition supplied their command or ranges available to support this training.

While it may not be appropriate to qualify all AUP on the RPG and PKM machine gun, it is
imperative that AUP at least have the opportunity to conduct familiarization live fire training
before they have to use the weapon in combat for the first time. This type of training becomes
more critical the smaller the organization. Not only would live fire training on these weapons
increase AUP confidence, proficiency, and defensive capability, but it would likely reduce
casualties.

While several options could be developed for conduct of RPG and PKM live fire training for the
AUP, the RTCs may offer the best solution, where it could be accomplished under a standardized
program of instruction by qualified Afghan instructors. Follow-on training could be included at
the district level as part of ongoing sustainment training for the AUP.

8
    This is a Cyrillic acronym for a Russian-made Pulemyot Kalashnikova Machine Gun.


                                                       33
Recommendation
9. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan, in coordination with the Ministry of
Interior/Afghan National Police, develop a plan to provide familiarization training/firing on
these weapons in basic training, especially for Afghan Uniformed Police in Key Terrain
Districts and Area of Interest districts.



Management Comments
NTM-A/CSTC-A concurred with comments. Incorporation of formal PKM training in the Basic
course would require an extension to the overall training schedule, which is not possible at this
time if AUP growth requirements in critical portions of the country are to be met. RPG
familiarization to provide defensive capability represents more significant challenges with
finding suitable sites and qualified instructors. There may be other familiarization tasks that can
be incorporated into training POIs in the future without impacting cost and schedule, such as
loading and unloading the weapons and safety manipulation.

Our Response
NTM-A/CSTC-A comments were responsive. We understand that management agrees with this
recommendation in principle, but, due to physical constraints, such as suitable range facilities
and time limitations, are unable to comply in the near-term. Management has accepted the
associated risks inherent in this course of action in order to meet higher priority, immediate goals
for development of the ANP. No further comments are required.




                                                34
Observation 10. Counter-Improvised Explosive Device
Training and Equipment
Afghan Police Commanders at the RTCs recommend more Counter-Improvised Explosive
Device (C-IED) training be included in the POI, and ANP Commanders in the field lacked
C-IED equipment.

Improvised Explosive Devices (IEDs) produce the largest number of ANP casualties. The ANP
primarily travel in Light Tactical Vehicles (LTVs—Ford Ranger pickup trucks) and do not have
sufficient training and equipment to defend against the IED threat.

This degrades ANP operational effectiveness and morale in the field, reinforcing a tendency to
maintain a defensive posture rather than patrolling their communities.

Applicable Criteria (See Appendix C, Number 4 and 16, for additional details.)
   •   Army Field Manual 3-24, “Counterinsurgency,” December 2006.
   •   DOD Instruction 5000.68, “Security Force Assistance (SFA),” October 27, 2010.

Discussion
Basic police training currently provides 18 hours of training on the various types of mines and
IEDs. This training consists of eight hours of classroom instruction and ten hours of practical
exercises. ANP non-commissioned officers are provided an additional eleven hours of training
on these subjects.

Afghan commanders at all three RTCs visited requested more anti-mine and C-IED training in
the POI. In addition, RTC Commanders and ANP forces in the field requested more anti-mine
and C-IED equipment and Up-Armored High Mobility Multi-Purpose Wheeled Vehicles
(HMMWVs) (UAH) for better protection.

Due to the high ANP illiteracy rates, police personnel would probably benefit more from
additional anti-mine or C-IED training that focuses on practical exercises and hands-on training
rather than classroom instruction.

In addition, U.S. officers reported that ANP units did not have sufficient C-IED capability, which
increases the risk of casualties. This is a Tashkil equipment issue for SY 1390 planning.

The Coalition is in the process of providing additional UAHs to augment/replace the ANP fleet
Ford Ranger pickup trucks. The addition of the UAHs, along with additional anti-mine/C-IED
training and equipment, should increase ANP effectiveness in protecting their personnel.
Consequently, their morale and retention will improve, increasing retained experience to further
C-IED capability.




                                               35
Recommendations
10.a. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the Ministry of
Interior, review Regional Training Command Programs of Instruction to ensure appropriate
and sufficient counter-improvised explosive device training is provided to Afghan Uniformed
Police during basic training.
10.b. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with International
Security Assistance Force Joint Command and the Ministry of Interior, determine what Afghan
National Police units would benefit from additional Counter-Improvised Explosive
Device/Explosive Ordnance Disposal equipment, prioritize the requirement, and develop a
procurement plan to provide the equipment.



Management Comments
NTM-A/CSTC-A and IJC both concurred with the recommendations, noting that efforts are
already underway to develop a staff cell under CJ7 to focus on C-IED force development,
training and equipment. The C-IED cell will work in coordination with IJC to review and
synchronize both training and equipment.

Our Response
NTM-A/CSTC-A and IJC comments were responsive. When the CJ7 C-IED staff cell is
operational, we ask for a copy of its organization chart and mission statement.




                                              36
Observation 11. Shortage of ANP Medical Personnel at the
Regional Training Centers
RTCs do not have enough of their authorized medical personnel assigned and present for duty to
support the medical needs of their trainees and staff.

This shortfall of medical personnel occurred because the MoI/ANP are not successful in
recruiting sufficient medical personnel to meet the authorization, or because those hired will not
deploy to the RTCs because of security concerns. This is especially true for high threat or
remote areas.

Aside from the issue of combat casualties, many policemen and their families do not receive
routine medical care. Policemen and police candidates who become sick or ill at the RTCs are
often not treated for minor illnesses in a timely manner which could result in:
    • Missing unnecessary days of work or training,
    • Spreading communicable diseases or illnesses,
    • Illness or injury becoming worse, which may require evacuation for long term care, and
    • Lower morale.

Applicable Criteria (See Appendix C, Number 24, for additional details.)
      •   MoI Surgeon General, “ANP Medical Support Doctrine.”

Discussion
“The failure to receive basic health care services reinforces the perception among many
policemen that they are not appreciated and has a negative effect on morale.” 9

The ANP is authorized 3,352 medical personnel, including 289 medical doctors, 230 nurses, and
2,833 medical technicians.

Specific medical authorizations for the RTCs are as listed below:
   • Central RTC: 17 Doctors, 25 Nurses, 5 Medical Technicians,
   • North RTC: 25 Doctors, 32 Nurses, 1 Medical Technician,
   • East RTC: 9 Doctors, 27 Nurses, 1 Medical Technician,
   • South RTC: 5 Doctors, 17 Nurses, 1 Medical Technician,
   • Southwest RTC: 7 Doctors, 11 Nurses, 1 Medical Technician, and
   • West RTC: 13 Doctors, 27 Nurses, 1 Medical Technician.

NTM-A/CSTC-A was unable to obtain reliable data from the MoI regarding the number of ANP
medical personnel available and assigned country-wide.
According to NTM-A/CSTC-A’s Surgeon General Medical Mentor, the ANP medical mandate,
as established by the ANP Surgeon General, is to ensure health care is provided to policemen
and their families. However, the ANP medical system is incapable of doing this. The extent of

9
    AUP zone commander interview on October 5, 2010.


                                                       37
ANP medical capability consists of the ANP hospital in Kabul and a small clinic with a surgeon
in each region. Outside of Kabul, ANP medical support from the clinics is largely outpatient.
ANA regional hospitals are authorized to treat ANP personnel, assuming accessibility.
However, one AUP zone commander stated that the ANA hospital in his region is strictly used
for ANA personnel and his police personnel are refused service.

The MoI/ANP are not able to recruit sufficient medical personnel to meet authorized strength,
primarily because there are insufficient medical personnel in the society at large. Additionally,
the vast majority of the medical personnel the MoI is able to hire are reluctant to leave the Kabul
area for assignments in the regions and provinces due to safety, security and quality of life
concerns. NTM-A/CSTC-A and MoI/ANP have recognized the need to rectify the shortage of
medical personnel and have implemented a plan to this end which includes increasing enrollment
and graduation from the ANSF medical schools and an increase in pay and benefits.

It is important to note that, theoretically, the policemen and police candidates at the RTCs can be
sent to the local ANP clinics, if manned, and also use the Ministry of Public Health hospitals or
nearby regional ANA 50 bed hospitals. Unfortunately, this is not the situation on-the-ground.
The local Ministry of Public Health hospitals are not capable of providing timely medical care to
the surrounding population and adding the care of police personnel was reportedly beyond their
capabilities.

Although a Memorandum of Understanding for mutual support exists between the ANA and the
ANP Surgeons General, it means little since it has not been signed by the ministers. Likewise,
there is little evidence of ANA/ANP medical cooperation in the field. However, the former
NTM-A/CSTC-A Surgeon General stated that the Tashkil authorizes a 0-6 grade ANP liaison
officer for each zone commander to facilitate ANP personnel care at ANA regional hospitals.
They were not evident in the regional commands visited. The former NTM-A/CSTC-A Surgeon
General also noted that he had reviewed a recent ANA Surgeon General report to the MoD
noting that ANA medical facilities had handled 11,000 cases “last week.” However, the ANA
Surgeon General report only identified two as ANP cases.

Recommendations
11. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan:
   a. Mentor the Minister of Interior to develop and execute a plan to recruit and ensure
assignment of authorized medical personnel to the Regional Training Centers and to determine
if an increase in the Tashkil authorization for Afghan medical personnel at the Regional
Training Centers is appropriate.
   b. Mentor the Minister of Interior and the Minister of Defense to develop and sign a
Memorandum of Understanding/Agreement that will allow Afghan National Police personnel
to be treated at Afghan National Army medical facilities.


Management Comments
NTM-A/CSTC-A concurred. In conjunction with the MoI, they have recently stood up a
recruiting cell to develop policy and address/improve the ANP medical recruiting process. Also,


                                                38
a Memorandum of Understanding/Agreement to allow Afghan National Police to be treated at
ANA medical facilities was recently signed by the MoD and MoI.

Our Response
NTM-A/CSTC-A comments were responsive. NTM-A/CSTC-A provided a copy of the MOU/A
signed by the MoD and MoI; no additional comments required.




                                            39
This Page Intentionally Left Blank




                40
PART III – FORCE DEVELOPMENT




             41
This Page Intentionally Left Blank




                42
Observation 12. Afghan National Army Support of the
Afghan National Police
The ANP cannot rely on tactical assistance from the ANA in the “hold” phase of the COIN
strategy.

This occurs because the role of the ANA in support of ANP COIN operations is not clearly
defined in MoD and MoI doctrine, policy, and planning for COIN operations.

As the ANA returns to their Forward Operating Bases to await the next large-scale clearing
operation, the enemy often infiltrates back into recently cleared areas to overrun lightly armed
and undermanned ANP checkpoints, station houses, and patrols.

Applicable Criteria (See Appendix C, Number 4 and 5, for additional details.)
   •   Army Field Manual 3-24, “Counterinsurgency,” December 2006.
   •   Army Field Manual 3-24.2, “Tactics in Counterinsurgency,” April 21, 2009.

Discussion
There is a fundamental lack of joint doctrine, policies, and procedures to integrate the efforts of
the ANA with those of the ANP. One consequence is that ANP forces often cannot rely on
timely support from the ANA. The AUP have benefited from ANA reinforcement in the initial
hold phase of an operation in their districts, but ANA units do not generally commit themselves
to support the AUP long enough to secure a police district or supporting ABP unit.

In various provinces and districts across Afghanistan, the police have experienced difficulty
holding areas that have been cleared by Coalition and ANA forces. In RC-N and parts of RC-W,
insurgent groups armed with RPGs and heavy machine guns have begun operating in areas that
had historically been relatively secure. They have been able to establish new shadow
governments in areas that were once cleared by Coalition and ANA units and have intimidated
the population into supporting them.

The Provincial Reconstruction Team 15 and POMLT in Meymaneh in RC-N asserted that more
support from the ANA would be required to successfully clear and hold the three provinces they
cover where insurgent forces have established a strong presence including a shadow government.
These groups have destroyed the ANPs LTVs (Ford Ranger pickup trucks) with relative ease and
have heavier and more effective weapons. Therefore, the police have tended to stay in their
more secure checkpoints and station houses for their safety, rarely conducting patrols in their
communities.

The ANA is equipped with heavy machine guns and up-armored HMMWVs that make them
more effective than the police in holding still contested areas, especially at night. If the ANA
were partnered with ANP units, as Coalition military units are deployed with ANP in KTDs,
their combined ANA-ANP capability would be able to better defend and hold contested terrain,
thereby improving GIRoA’s ability to achieve stability and support establishing local governance
and development.
As another example, the RC-N commander stated there have been reported instances of ANP
checkpoints, in the immediate vicinity of ANA Forward Operating Bases, being attacked and


                                                 43
engaged in extended firefights resulting in their positions being overrun. But, the ANA would
not leave their nearby Forward Operating Base to assist. In many instances these firefights
occurred during the night.

There is generally no policy, doctrine, or Standard Operating Procedure that requires the ANA to
assist the ANP with hold operations. Reportedly, ANA forces unilaterally decide when to
withdraw their forces, preferring to remain at their Forward Operating Bases, until engaged in
large-clearing clearing operations.

Recommendations
12.a. Commander, International Security Assistance Force/U.S. Forces-Afghanistan, in
coordination with International Security Assistance Force Joint Command and North Atlantic
Treaty Organization Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan, mentor the Minister of Defense and Minister of Interior to develop and execute a
joint strategy for unified and mutually supporting Afghan National Army and Afghan National
Police counterinsurgency operations.
12.b. Commander, International Security Assistance Force/U.S. Forces-Afghanistan, in
coordination with International Security Assistance Force Joint Command and North Atlantic
Treaty Organization Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan, mentor the Minister of Defense and Minister of Interior in the development of
doctrine, policy, and planning to support joint Afghan National Army and Afghan National
Police operations.



Management Comments
ISAF concurred. The MoD COIN policy is approved and supports unified ANA and ANP
operations. ANSF has to do a better job to communicate, understand, coordinate, and implement
this strategic policy. Both NTM-A/CSTC-A and IJC are working to assist ANSF to develop
tactical level COIN doctrine and practices which are understood and followed by both ANA and
ANP. The guidance exists for planning and support of joint ANA and ANP operations.
However, a greater effort is required in promulgating these documents and developing further
concepts of operations and tactical plans that support operations derived from national strategy.

Our Response
NTM-A/CSTC-A comments were responsive. We request that ISAF send the OIG a copy of the
tactical level COIN doctrine and practices supporting joint ANA/ANP operations when they are
developed and published.




                                               44
Observation 13. Governance/Rule of Law in Key Terrain
Districts
In many districts, to include KTDs, the AUP are not linked to a functioning RoL/justice system.
District governors and justice system officials are not resident full-time, if at all. In such
instances, the local police are effectively the only GIRoA presence which complicates their
COIN mission.

As a consequence, the AUP in these districts were unable to provide security and support justice
in the COIN campaign, which depends on implementation of an integrated strategy in which
governance/RoL, economic development, as well as security measures, combine to gain the
confidence and support of the people.

Consequently, insurgents have exploited this void in GIRoA governance, RoL, and policing by
providing their own version of these services, strengthening their influence with the population.

Applicable Criteria (See Appendix C, Numbers 4, 13, and 16, for additional details.)
     •   Army Field Manual 3-24, “Counterinsurgency,” December 2006.
     •   DOD Instruction 3000.05, “Stability Operations”, September 16, 2009.
     •   DOD Instruction 5000.68, “Security force Assistance (SFA),” October 27, 2010.

Discussion
In the execution of the “hold” and “build” phases of the COIN campaign in Afghanistan, the
AUP have a key role to play at the district level as part of an integrated strategy in which the
effects of security, governance/RoL, as well as economic development, serve to mutually
reinforce gaining the trust and confidence of the populace in support of GIRoA.

The AUP depend upon a functional system of governance and justice in their districts to perform
their policing duties. However, previous DODIG reporting found that, “The professional
connection…between the ANP and the criminal justice system/RoL system was tenuous at
best.” 10 This is especially problematic with respect to the inability of the police throughout the
country to assist meeting the people’s need for prompt justice through either formal or informal
legal measures. Polls and interviews with the Afghan people indicate that addressing crime and
resolution of disputes are actually more important to them than fighting the Taliban. 11

Yet, effective GIRoA governance and RoL did not exist in twenty-three KTD and AOI districts
in RC-E, a high threat region which encompasses the border with Pakistan and extends to the
Capitol Region. Consequently, the AUP were often the only government presence in these
priority districts. This situation threatened accomplishment of a key goal of the COIN strategy—
implementing an integrated strategy in which governance/RoL, economic development, and
security measures combine to protect and gain the support of the population.


10
   DODIG Report No. SPO-2009-007, “Assessment of U.S. and Coalition Plans to Train, Equip, and Field the
Afghan National Security Forces,” September 30, 2009, pg 117.
11
   Royal United Services Institute for Defense and Security Studies (London) and the Foreign Policy Research
Institute (Philadelphia) “Reforming the Afghan National Police.” RUSI 10 Sep 2009, pg 14.


                                                       45
There are a number of factors that could be contributing to lack of a government presence:
   • Insufficient security, leading to assassinations/kidnappings of government personnel,
   • A general shortage of qualified/non-corrupt civic administrators and RoL officials,
   • Desire to live near/in a provincial population center, and
   • Corruption, which enables government officials to buy their position of choice.
   • Lack of a sustained commitment by the government to establish local governance/RoL.

Reportedly, another factor is that Ministry of Justice personnel receive insufficient compensation
to incentivize them to reside in insecure districts where they could become an insurgent target.
Qualified district prosecutors receive about $86 per month, much less in Afghan economic terms
than the $165-245 per month paid to AUP personnel.

The AUP will not be able to stand alone in their districts without strong support from the central
government and the Coalition to establish effective governance, especially RoL. Since it may
take many years to build a formal justice system nation-wide that extends down to the district
levels, it may be expedient, if not necessary to increase reliance on the traditional informal
system of justice.

Afghans have traditionally relied primarily on an informal justice system based on Jirga and
Shura traditional councils. Their decisions were not accepted as consistent with the Afghan
Constitution and international legal standards, although they were generally perceived by the
populace to be fair and prompt.

A recent Ministry of Justice draft special law will, if implemented, provide a legal basis for the
informal traditional justice system in Afghanistan. 12 For the first time, legal sanction would be
given to the decisions of tribal councils, which could fill the void created by the absence of the
formal legal institution. This promises to strengthen the RoL most critically at the district and
sub-district levels, and thereby support police execution of their responsibilities and be more
responsive to the priority justice needs of the Afghan people.

The RC-E commander has made addressing the problem of weak or non-existent district
governance a top priority and has committed his command to a “district centric” operational
approach.




12
     http://www.pajhwok.com/en/2010/10/26/informal-justice-system-have-legal-cover-video.


                                                        46
Recommendations
13. Commander, International Security Assistance Force/U.S. Forces-Afghanistan, in
coordination with the U.S. Chief of Mission:
   a. Support the Government of the Islamic Republic of Afghanistan in identifying districts in
which governance/Rule of Law representatives are not effectively present, especially in key
terrain districts and area of interest districts.
   b. Support the Government of the Islamic Republic of Afghanistan in the implementation of
a strategy to address the lack of governance/Rule of Law in these districts.
  c. Support the Government of the Islamic Republic of Afghanistan in reforming pay for
prosecutors employed by the Ministry of Justice/Attorney General.
   d. Assist the Government of the Islamic Republic of Afghanistan in engaging the informal
traditional system of justice in support of local police development and counterinsurgency
operational objectives.



Management Comments
ISAF concurred with all four recommendations. The U.S. Embassy is the lead agency for pay
reform for prosecutors and is currently heavily engaged with the Attorney General’s office to
enact pay reform. Also, NTM-A/CSTC-A supports the USG RoL Strategy for Afghanistan
which has, as one pillar of support, support for traditional (vice tribal) judicial reform to support
dispute resolution at the local level.

Our Response
ISAF comments were responsive. We ask that ISAF, in coordination with the U.S. Embassy and
GIRoA, provide a list of KTDs and AOIs that lack effective governance/RoL representatives,
along with a plan to strengthen them; also provide an update on U.S. Embassy efforts to enact
pay reform in the Attorney General’s office.




                                                 47
This Page Intentionally Left Blank




                48
Observation 14. Corruption in the Afghan Uniformed Police
Corruption is a significant impediment to ANP effectiveness and ability to gain trust at local
governance levels where the police are often the face of the government.

A professional culture of accountability and responsibility has generally not yet taken hold
among the AUP, which is still in an early stage of its development, and there are insufficient
police leaders to set an appropriate example for more junior police to follow.

Corrupt AUP practices that exploit the people, rather than protect them, undermines the COIN
strategy in affected areas and enable insurgents to expand their influence.

Applicable Criteria (See Appendix C, Number 4, 13, and 16, for additional details.)
     •   Army Field Manual 3-24, “Counterinsurgency,” December 2006.
     •   DOD Instruction 3000.05, “Stability Operations”, September 16, 2009.
     •   DOD Instruction 5000.68, “Security Force Assistance (SFA),” October 27, 2010.

Discussion
“Marjah’s previous police force was so corrupt and abusive that residents warned the Marines
prior to the invasion that “if you bring in the cops, we will fight you till death.” 13

Afghanistan was ranked 179 of 180 countries surveyed in Transparency International’s Annual
Corruption Index for 2009. 14

Corruption has been identified by the Afghan people as a primary concern, one that significantly
impacts their view of their government. Approximately 81 percent of Afghans stated that
government corruption affected their daily lives. 15 Reportedly, according to polls, three times as
many people today believe that corruption is a greater problem now than it was under the
Taliban. 16

GIRoA officials that have taken bribes reportedly included: 17
   • Police Officers         ~25%
   • Provincial Officers ~25%
   • Judges                  ~18%
   • Prosecutors             ~14%

Police corruption is perceived and judged within the context of corrupt actions by other
government representatives, and therefore addressing the issue of the impact of corruption on the
13
    Jeffrey Dressler, “Marjah’s Lessons for Kandahar,” Institute for the Study of War, Jul 9, 2010 quoting C. J.
Chivers, “With Marja largely won, Marines try to win trust,” New York Times, March 1, 2010
14
   I. Livingston, H. Messera and M. O’Hanlon. Brookings, Afghanistan Index, 29 Jun 2010, Fig. 2.15.
15
   “Report on Progress Toward Security and Stability in Afghanistan – Report to Congress in accordance with
sections of the National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181), as amended,”
November 2010, p. 62.
16
   IJC Briefing, “Enemies of the People,” 1 October 2010. Slide 7.
17
   Ibid, Slide 7.


                                                      49
credibility of governance requires measures taken on a broader front than with just the police.
The newly established Combined Joint Interagency Task Force (CJIATF) Shafafiyat seeks to
plan and implement ISAF anti-corruption efforts, including a focus on ANSF as a function and
the face of governance.

Nonetheless, addressing the problem at the local AUP police level is now more feasible with the
deployment of U.S. and other Coalition military forces and civilian police advisors to priority
COIN districts. Through their day-to-day mentoring and demonstration of how an effective
security force performs, and by setting a high standard of professionalism, they have begun to
raise the standard of AUP behavior with respect to the population. Progress in this regard is now
monitored in the Commander’s Unit Assessment Tool (CUAT) report issued every six weeks.

A related approach under IJC consideration is to work with local Afghan informal leaders and
their organizational structures to support the anti-corruption initiative by using their own
influence. Promoting local solutions to the problem of corruption, supported by the new
Combined Joint Interagency Task Force on anti-corruption, could have a beneficial sustained
impact.

In the past year, the MoI has removed a number of senior police officials from the national down
to the provincial levels. While this is a very encouraging trend, the perspective in the field
among Coalition mentors/trainers was that in too many cases the police officials involved were
just moved to another position.

The reported extent of the corruption problem at the local police level of Afghan governance
puts the government’s very legitimacy at risk with the Afghan people. ISAF and its subordinate
commands, NTM-A/CSTC-A and IJC, are working closely with the U.S. interagency and its
international partners to reinforce government efforts to change the culture of corruption to one
of accountability. This will take time but deserves a determined, sustained effort.

Recommendations
14. Commander, International Security Assistance Force/U.S. Forces-Afghanistan, in
coordination with the International Security Assistance Force Joint Command and North
Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan:
  a. Ensure International Security Assistance Force organizations, including U.S. military
units and their embedded civilian advisors, and Police Operational Mentor and Liaison Teams
partnered with the Afghan Uniformed Police at provincial, district, and precinct levels, work
with the informal Afghan leaders present in support of a coordinated anti-corruption initiative.
   b. Commander, International Security Assistance Force/U.S. Forces-Afghanistan, in
coordination with the International Security Assistance Force Joint Command, the North
Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan, and the U.S. Embassy, implement a joint outreach strategy with the
Government of the Islamic Republic of Afghanistan to mobilize support among local Afghan
informal leadership--district and local councils, tribal and village elders, et al.--in support of
anti-corruption objectives.



                                                 50
Management Comments
ISAF concurred with Recommendations 14.a and 14.b. 18

Our Response
We ask that ISAF provide comments in response to the final report on how these
recommendations will be implemented.




18
   The management comments from ISAF, dated 16 January 2011, made no reference to recommendations 14.a and
14.b. When queried, the USFOR-A IG responded, noting that the Command concurred with recommendations 14.a
and 14.b.


                                                    51
This Page Intentionally Left Blank




                52
Observation 15. Oversight Related to Afghan Security
Forces Fund Contracting
NTM-A/CSTC-A cannot accomplish its responsibility for “stewardship” of Afghan Security
Force Fund (ASFF) resources because it lacks adequate specialized personnel resources to
initiate, manage, and oversee a rapidly expanding contracting environment.


                See Management Letter at Appendix E for a detailed discussion.

Recommendations
15.a. Commander, International Security Assistance Force/U.S. Forces-Afghanistan, in
coordination with North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, request an increase in authorized/
assigned subject matter experts consistent with the expanding Afghan Security Force Fund-
related oversight needs and responsibilities.
15.b. Vice Chairman, Joint Chiefs of Staff, take appropriate action to provide North Atlantic
Treaty Organization Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan the personnel required to execute its oversight mission. (This recommendation
previously provided in the Management Letter at Appendix E.)



Management Comments
ISAF concurred with Recommendation 15.a. noting that ISAF cannot provide oversight of ASFF
investments without assignment of additional personnel to oversee contracts and affect other
stewardship actions. A recent manpower study led to the requirement for increased personnel to
manage/oversee ASFF contracting that is documented in the command’s JMD modification
request and in RFF 1216.

Vice Chairman, Joint Chiefs of Staff, concurred with Recommendation 15.b, noting that the
recommendation had facilitated the staffing of USCENTCOM RFF 1216, requesting 272
personnel to assist in oversight of ANSF force development tasks.

Our Response
ISAF and the Vice Chairman comments were responsive. No further comments are required.




                                              53
This Page Intentionally Left Blank




                54
Observation 16. Afghan National Police Logistics System
The ANP logistical system is in a nascent state of development and lags operational needs. ANP
operational commanders and their logistics personnel lack confidence in the supply process,
which does not provide visibility of the status of their MoI 14 request in the supply chain. (A
MoI Form 14 is the document used in the MoI logistics system to request supplies and
equipment.)

Developing the ANP logistics system has only become a U.S. military command priority within
the past year.

As a result, ANP forces are not motivated to trust and use the supply system, which has not
adequately supported them with the supplies and equipment required to maintain operational
readiness and performance, which affects and the willingness to perform their mission.

Applicable Criteria (See Appendix C, Number 7, 17, and 23, for additional details.)
   •   Center for Army Lessons Learned Handbook 10-08, “Partnership: Development of
       Logistics Capabilities,” November 2009.
   •   DOD 4140.1-R, “DOD Supply Chain Material Management Regulation,” May 23, 2003.
   •   MoI Logistics Management Directorate, “Process for the Management of Logistics,”
       January 6, 2009.

Discussion
The relative ineffectiveness of the ANSF logistics system, to include the ANP system was noted
by DODIG in the September 30, 2009 Report No. SPO-2009-007, “Assessment of U.S. and
Coalition Plans to Train, Equip, and Field the Afghan National Security Forces.” CSTC-A
advisors reported during that assessment that, because there was no transparency in ANSF
supply distribution, each step in the requisition and distribution process was vulnerable to
significant inefficiency, as well as outright blockage of supplies due to corruption from bribes or
loss from pilferage.

Since that assessment, NTM-A/CSTC-A has made developing an ANP logistics capability a
priority. Although progress has been made, there are many challenges yet to be addressed.
Senior IJC officers commented during this assessment that the logistics system supporting the
ANP was dysfunctional and must be fixed if the ANP were to endure over time as an effective
national police force.

An updated MoI logistics policy was still in draft form and had not been fully instituted within
the police force; the forward deployed regional and provincial supply depots were not yet
established or at full operating capacity.

The cause of ANP commander’ distrust of the logistics system has been its lack of transparency.
The process by which equipment and supplies are requested from MoI, which controls the supply
depots, does not enable commanders to track the status of their MoI 14 supply requests.

To address this problem, the 1st Brigade, 10th Mountain Division’s Brigade Support Battalion
(BSB) in RC-N formed a Logistics Military Training Team (LMTT) to train their ANP logistics



                                                55
counterparts on how to track and reconcile all ANP supply and equipment requisitions using the
MoI 14 process. When necessary, the BSB works through U.S. military/Coalition/ contract
civilian counterparts at each level of the ANP logistics process to find and eliminate bottlenecks
and enable ANP visibility over the supply system processes. The LMTT also advises U.S.
Forces on ANP logistics procedures and coordinates with adjacent U.S./Coalition units tasked
with logistics mentoring in order to unify efforts and gain visibility over supply processes and
requests.

Expanding the LMTT concept would accelerate ANP logistical development, which significantly
lags the immediate operational needs of ANP forces and could fall further behind as the ANP
continues to grow. IJC was considering deploying BSB units from its Theater Sustainment
Command to partner with ANSF units, including the ANP. This approach proved highly
successful in Iraq in accelerating logistics capability of the Iraq Security Forces.

The LMTT experience also indicates that a process of monthly reconciliation of MoI 14 supply
requests made by ANP operational commands would be beneficial. This could identify logistical
bottlenecks and projected fill dates, and identify any disappearance/diversion of shipped
equipment and supplies from their intended organization or purpose.

To further advance and improve MoI/ANP logistics development, NTM-A/CSTC-A has
organized a joint working group with MoI/ANP that will meet regularly to identify and resolve
issues.

Recommendations
16.a. Commander, International Security Assistance Force Joint Command, utilize Theater
Sustainment Brigades and Brigade Support Battalions to support logistical development of the
Afghan National Police.
16.b. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the International
Security Assistance Force Joint Command and the Ministry of Interior, develop a process for a
monthly joint Coalition Force/Afghan National Police reconciliation of Ministry of Interior
Form 14 supply requests from operational Afghan National Police commands and districts,
providing a status of each request and projected date of fill.



Management Comments
ISAF concurred with Recommendation 16.a, noting that IJC would explore additional partnering
by Sustainment Brigades deployed in theater as a means to support logistical systems in the
Afghan National Police. Additionally, IJC will continue to explore areas to create logistic
synergy between Army and Police.



NTM-A/CSTC-A concurred with Recommendation 16.b. The MoI Form 14 supply
reconciliation will be conducted at the nearest RLC for all associated units in their area of



                                                 56
responsibility. NTM-A/CSTC-A has also created a centralized customer service help line and
centralized tracking process that gives feedback to the RLCs.

Our Response
ISAF comments to Recommendation 16.a were responsive. We request an update on IJC efforts
to explore additional partnering by Sustainment Brigades deployed in theater as a means to
support logistical systems in the Afghan National Police. NTM-A/CSTC-A comments to
Recommendation 16.b were responsive. No further comments are required.




                                             57
This Page Intentionally Left Blank




                58
Observation 17. Civilian Personnel Shortages at Afghan
National Police Regional Logistics Centers
Regional Logistics Centers (RLCs) are having difficulty filling their authorized civilian positions
in RC-E and RC-S, which could prevent them from reaching Full Operating Capability and
performing their important ANP supply mission.

Based on the observations of the OIG team and reports from CF mentors/trainers, uniformed and
civilian police personnel authorized in the Tashkil for the RC-E and RC-S RLCs have not been
recruited or assigned in sufficient numbers.

This has occurred because:
   • Qualified local personnel are afraid to work for GIRoA or with the Coalition because of
       insurgent intimidation,
   • There are not enough qualified people in the local population, and
   • Pay is insufficient to attract qualified people.

As a result, the RLCs in RC-E and RC-S were depending on Coalition mentors and trainers to
perform this MoI supply facility mission, and the RLCs were not on track to be fully operational
with ANP personnel in the lead by the target dates established.

Applicable Criteria (See Appendix C, Number 26, for additional details.)
   •   “Report on Progress Toward Security and Stability in Afghanistan – Report to Congress
       in accordance with sections of the National Defense Authorization Act for Fiscal Year
       2008 (Public Law 110-181), as amended,” November 2010.

Discussion
MoI Regional Logistics Centers. NTM-A/CSTC-A has been building seven RLCs,
regional supply hubs for the MoI and the ANP. The RC-E and RC-S RLCs were scheduled to be
fully operational by January 1, 2011. RLCs are the equivalent of forward supply depots for the
ANA. Other than initial issue gear provided to ANP recruits who have completed their basic
training, all follow on equipment will be supplied by the RLCs or from Provincial Supply Points
(PSPs).

The RLC in RC-E at Gardez and the RLC in RC-S in Kandahar are at initial operational
capability. However, they are dependent on Coalition mentors and trainers to manage the
respective facilities. In Gardez, the RC-E RLC is authorized 86 government civilians and 51
ANP personnel, but only had three civilians and 30 ANP working to support operations. The
505th Zone Commander was using several of the ANP assigned for his personal security
detachment. The RLC in RC-S at Kandahar is authorized 90 civilians and 47 ANP personnel,
but only had 10 civilians and 10 ANP personnel working at the facility.

NTM-A/CSTC-A Plans. Personnel at NTM-A/CSTC-A stated they were aware of the
deficiency of civilian personnel at the RLCs in the East and in South. They were also aware that
those RLCs would probably not reach fully operational capability by the end of the year. An



                                                59
NTM-A/CSTC-A contract was being developed to hire contract personnel to bridge the shortfall
of MoI civilian employees/ANP.

Recommendation
17. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan, in coordination with the Ministry of Interior,
determine if salary adjustment incentives or other personnel hiring measures, such as
contracting, must be implemented to provide the necessary Afghan workforce at Regional
Logistics Centers/ Provincial Supply Points.



Management Comments
NTM-A/CSTC-A concurred. NTM-A/CSTC-A has developed two courses of action to address
RLC civilian manpower shortages. The first course of action is using the CPR process to convert
the GIRoA civilian positions back to AUP; and later, after civil service reform makes civilian
hiring more feasible, revert the positions back to GIRoA civilians. The second course of action
is to contract out the positions in the interim and then later convert the positions back to GIRoA
civilians.

Our Response
NTM-A/CSTC-A comments were responsive. Please provide an update memorandum to OIG
describing the course of action to implement the decision made.




                                               60
Observation 18. Regional Logistics Centers/Provincial
Supply Points
RLC authority, roles, and responsibilities, and by inference those of the PSPs, are not clearly
understood by ANP senior commanders at operational levels or, in some cases, their
U.S./Coalition counterpart mentors.

Senior ANP commanders misunderstood their authority with respect to RLCs, believing that the
RLC was their subordinate organization since it was located in their battle space, rather than
under direct MoI authority. Their U.S. military mentors were not able to advise their
counterparts because the command and control relationships were not clear to them either.

This resulted from lack of guidance/orders/procedures from MoI, NTM-A/CSTC-A, and IJC
clearly establishing the RLCs and Provincial Supply Points (PSPs) as national assets controlled
and operated by the MoI, not under the authority/purview of the ranking ANP commander in the
area of the RLC’s physical location.

Lacking such guidance, there have been instances in which ANP senior commanders, on their
own volition, have redirected issue of vehicles, weapons, and other supplies from the RLCs to
police organizations other than those intended or demanded issue of supplies without
documentation of the transfer with a MoI 14. This included the diversion of a recently
constructed weapons maintenance facility for use as private quarters. This is disruptive to
functioning of the supply system and field operations, and contrary to MoI regulations.

Applicable Criteria (See Appendix C, Number 7 and 23, for additional details.)
   •   Center for Army Lessons Learned Handbook 10-08, “Partnership: Development of
       Logistics Capabilities,” November 2009.
   •   MoI Logistics Management Directorate, “Process for the Management of Logistics,”
       January 6, 2009.

Discussion
At the RLC in RC-S, the RLC commander was reporting the status of shipments and authorized
stockage levels to the ANP regional commander, as opposed to the Chief of Logistics at MoI.
The team observed that the Afghan RLC commander did not understand that he worked for the
Chief of Logistics at MoI, not the senior ANP commander in the region. At this same RLC, the
senior ANP commander had redirected weapons bound for ANCOP kandaks (Afghan equivalent
of a battalion) to his AUP units. The RLC commander allowed this to happen in deference to the
ANP senior commander, who was a General, and consistent with the belief of the ANP
commander that he owned the RLC and everything in it because it was in his battle space.

U.S./Coalition mentors did not know whether they had the authority to interfere. The DODIG
team could not locate any NTM-A/CSTC-A guidance to their mentors/trainers specific to issues
such as this. The U.S. deputy commander in RC-N noted the same problem with both ANP and
ANA units in his area. “Supplies are going to the wrong guy” because the ANP battle space
owner also believed that “it is in my battle space, so I own it and will decide what to do with it.”
The impact is that NTM-A/CSTC-A and MoI fielding of equipment and supplies, and their



                                                 61
resupply plans, are being disrupted. Furthermore, these unpredictable supply procedures
interfere with IJC and MoI operational plans.

Recommendations
18.a. Commander, International Security Assistance Force Joint Command, in coordination
with North Atlantic Treaty Organization Training Mission-Afghanistan/ Combined Security
Transition Command-Afghanistan, ensure U.S. and other Coalition Force mentors understand
the presence, capability, and role of Regional Logistics Centers/Provincial Supply Points, and
clarify with the mentors/trainers the Ministry of Interior procedures for police units to submit
Ministry of Interior Form 14 supply requests to Regional Logistics Centers/Provincial Supply
Points, and the approval and issuance process.
18.b. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the Ministry of
Interior, assist in development of Ministry of Interior guidance/orders/procedures for Afghan
National Police forces (Afghan Uniformed Police, Afghan Border Police, Afghan National
Civil Order Police) that clarify/define the role and responsibilities of the Regional Logistics
Centers/Provincial Supply Points vis-à-vis the Afghan National Police, and the Ministry of
Interior procedures for requesting supplies from Regional Logistics Centers/Provincial Supply
Points.


Management Comments
ISAF concurred with Recommendation 18.a. NTM-A/CSTC-A has initiated three
complementary efforts to meet the intent of the recommendation: 1) hosting a monthly training
meeting with all RLC and PSP advisors to synchronize training efforts, to include MTTs and
contractors, 2) the first RLC/PSP Commander and Advisor Conference was held in December
2010 to educate on logistic policies, and 3) stood up a new Office of Professional Development
to manage training of Afghan logisticians.

NTM-A/CSTC-A concurred with Recommendation 18.b. The existing MoI guidance for
logistics management is under revision to add content. Transportation and munitions initial
policy concept papers have been prepared and are awaiting approval.

Our Response
ISAF comments to Recommendation 18.a were partially responsive. While efforts are on-track
to educate/inform the logistics trainers/mentors controlled by NTM-A/CSTC-A about the
roles/functions of the RLCs/PSPs, we request further details from IJC regarding plans to
educate/inform the trainers/mentors/Brigade Combat teams under IJC control about
locations/roles/functions of the RLCs/PSPs so they can more effectively perform their respective
missions.

NTM-A/CSTC-A comments were responsive to Recommendation 18.b. We request that NTM-
A/CSTC-A provide copies of updated MoI logistics policy guidance, once it is approved and
published.




                                                62
Observation 19. Stockage Levels at Regional Logistics
Centers
NTM-A/CSTC-A and MoI have not established planning factors and goals with respect to the
RLC/PSP supply distribution system, to include establishing stockage level objectives.

This resulted from the expeditious fielding of the regional and provincial supply depots and a
lack of planning within MoI and mentoring by NTM-A/CSTC-A.

This has caused confusion at the RLCs in RC-N, RC-E, and RC-S. Neither the ANP personnel
nor the Coalition mentor/trainers at the RLCs had clear understanding of command and control
responsibilities for their operations. Neither did they know what supplies were inbound or what
stock levels they were supposed to receive and maintain.

This lack of transparency and clarity has impeded the development of a sustainable ANP
logistics system and could also result in diversion of equipment and supplies or theft.

Applicable Criteria (See Appendix C, Number 7, 23, and 26, for additional details.)
   •   Center for Army Lessons Learned Handbook 10-08, “Partnership: Development of
       Logistics Capabilities,” November 2009.
   •   MoI Logistics Management Directorate, “Process for the Management of Logistics,”
       January 6, 2009.

Discussion
The ANP logistics system is
immature and two of the five
planned RLCs are new.
Currently, only the Helmand
Province PSP is fully
operational. Of the three
RLC’s visited, none had
written guidance explaining
their command and control
responsibilities. In one
instance, the RLC commander
did not know that he was
supposed to report to MoI
Director of Logistics, not the
regional police commander.

None of the RLC personnel         Figure 4. Regional Logistics Center Stocked with Construction Supplies
knew their stockage level
objectives.

The MoI logistics policy, “Process for the Management of Logistics,” January 6, 2009, states
what criteria are used to develop a MoI Authorized Stockage List/stock level. If the Authorized



                                                  63
Stockage Lists for the RLCs exist, they need to be published and sent to both ANP and Coalition
personnel mentoring each RLC/PSP.

Personnel at each RLC/PSP needs to know what equipment and supplies they are supposed to
stock, what levels of stock they are expected to maintain, and when these supplies and equipment
will be delivered. They can then complete warehousing plans, establish re-order points, and also
tell their supported units what supplies and equipment the RLC will be able to provide and when.


Recommendations
19. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, assist the Ministry of Interior to:
  a. Develop and issue command and control guidance for each Regional Logistics
Center/Provincial Supply Point commander and Afghan National Police operational
commanders in which these depots reside.
  b. Prepare and issue authorized stockage levels for each of the Regional Logistics
Centers/Provincial Supply Points.



Management Comments
NTM-A/CSTC-A concurred. The MoI recently signed a Decree directing that RLCs and PSPs
be removed from under Regional Headquarters Commanders and will now fall under the Deputy
Minister for Administration and Support in the MoI. With the national logistics system under the
direct command and control of the Support Command Commander, the Chief of Logistics will
have unified control of national logistics. Also, Class VIII medical logistics policy is currently
in draft. The approved policy will standardize Class VIII processes for RLCs and PSPs.
NTM-A/CSTC-A has already developed an Authorized Stockage List for each RLC and PSP and
this is currently in operation.

Our Response
NTM-A/CSTC-A comments were responsive. We request that NTM-A/CSTC-A provide a copy
of the recently signed Decree directing that RLCs and PSPs be removed from under Regional
Headquarters Commanders and will now fall under the Deputy Minister for Administration and
Support in the MoI, as well as a copy of the MoI Class VIII medical logistics policy to OIG,
once the policy is approved.




                                               64
Observation 20. Equipment/Supplies Shipped to Regional
Logistics Centers/Provincial Supply Points
ANP equipment and supplies have been shipped to RLC/PSP logistics depots without prior
coordination and have arrived without the required MoI Form 9 documentation attached to the
shipping container/connex identifying its contents. (A MoI Form 9 provides an inventory, by
type and quantity, of equipment/supplies in a shipping container/connex.)

This has occurred because the MoI has not enforced established procedures for communicating
shipment information or providing documentation of equipment and supplies in transport.

Without shipment data, the depots cannot prepare for what supplies will be arriving when,
preventing effective management of their resources.

Furthermore, for lack of an attached inventory list, personnel at the RLC/PSP have had to open
the container and conduct a complete inventory. Even then, RLC/PSP personnel have been
unable to determine if theft or diversion has occurred, as they were unsure of what
types/quantities of supplies or equipment were supposed to be in the shipment.

Applicable Criteria (See Appendix C, Number 7, 17, and 23, for additional details.)
   •   Center for Army Lessons Learned Handbook 10-08, “Partnership: Development of
       Logistics Capabilities,” November 2009.
   •   DOD 4140.1-R, “DOD Supply Chain Material Management Regulation,” May 23, 2003.
   •   MoI Logistics Management Directorate, “Process for the Management of Logistics,”
       January 6, 2009.

Discussion
Connex containers filled with various equipment and supplies are arriving unexpectedly at the
RLCs. Moreover, there are instances in which no MoI Form 9 is attached to or inside the connex
specifying the contents and quantity.

The MoI Logistics Policy is clear on the requirement for using MoI Form 9s. A Form 9 is a
Materiel Issue Order that authorizes and accompanies equipment issued. It performs the
following functions:
    • Establishes what equipment/supplies are being issued,
    • Documents receipt of equipment, by type and quantity, from stock record accounts, and
    • Provides a basis to verify serial numbers during the receiving inventory.

This issue has been a problem during the recent emphasis on moving supplies and equipment
from ANP warehouses/depots in Kabul to the newly established RLCs/PSPs. The RLC/PSP
personnel often do not know that a shipment is inbound until it arrives and are unprepared to
receive the shipment. The shipment often does not have the appropriate documentation (MoI
Form 9) available to determine the type and quantity of equipment and supplies in the shipment.
Without documentation, RLC/PSP personnel have to open up the container to conduct a detailed



                                              65
inventory. Even then, it is difficult to determine if any part of the shipment has been diverted or
stolen during transport since there is no record of what was supposed to be in the container.


Recommendations
20. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan, assist the Ministry of Interior to:
  a. Develop a system to ensure that Afghan National Police/Coalition personnel at the
Regional Logistics Centers/Provincial Supply Points know what type and quantity of
equipment and supplies are in-bound, and when.
  b. Ensure compliance with current policy/procedure to maintain proper documentation with
each shipment.



Management Comments
NTM-A/CSTC-A concurred. A system to let RLC/PSPs know what type and quantity of
equipment and supplies are in-bound and when they will arrived has been developed and fielded.
The ANP Distribution Tracker capable of listing and tracking shipments from the MoI Material
Management Center. This tracker is distributed to each RLC/PSP weekly via email. Several
initiatives have been implemented to insure that Form 9s are received and signed at the
destination, to include driver copies and container package documentation. There are future
initiatives to use the internet to send and sign Form 9s, pending IT infrastructure.

Our Response
NTM-A/CSTC-A comments were responsive. No further comments are required. We will
follow-up to assess the effectiveness of this system during future ANSF assessments.




                                                66
PART IV – FORCE SUSTAINMENT




            67
This Page Intentionally Left Blank




                68
Observation 21. Plan to Develop Afghan National Police
Logistics Capability
ISAF does not have an integrated plan to ensure unity and success in their efforts to address the
challenge of building ANP logistics capability consistent with ANP operational support needs.

This occurred because the IJC is a relatively new command, tasked with developing fielded ANP
organizations and executing the operational aspects of the COIN strategy, respectively. Since
their stand-up, the commitment to establish an ANP organic logistics sustainment capability has
been made a priority, for which IJC and NTM-A/CSTC-A share responsibilities.

Without an integrated plan to build ANP logistical capability, it has been difficult to coordinate
the efforts of the respective commands and define where their roles end, intersect, or overlap.

Current efforts do not reflect sufficient unity of effort, as a result of which ISAF resources are
not effectively leveraged to accomplish the mission, and gaps in coordination and execution
occur. Mentors at all levels of the NTM-A/CSTC-A and IJC are not sufficiently synchronized in
their various efforts to build ANP logistical capability.

Applicable Criteria (See Appendix C, Numbers 4, 7, 16, 17, 18, 20, 21, and 22, for
additional details.)
   • Army Field Manual 3-24, “Counterinsurgency,” December 2006.
   • Center for Army Lessons Learned Handbook 10-08, “Partnership: Development of
       Logistics Capabilities,” November 2009.
   • DOD Instruction 5000.68, “Security Force Assistance (SFA),” October 27, 2010.
   • DOD 4140.1-R, “DOD Supply Chain Material Management Regulation,” May 23, 2003.
   • IJC Operation Order OMID 1390 001-2010, “ISAF Joint Command Operations in
       Afghanistan” – Annex G, Appendix 2 (Classified).
   • Joint Publication 3-07.1, “Joint Tactics, Techniques, and Procedures for Foreign Internal
       Defense,” 30 April 2004.
   • MoI Affairs, Department of Strategy, “Police Plan for SY 1389,” March 2010—priority
       4.
   • MoI Afghan National Police Strategy, March 2010.

Discussion
While IJC and NTM-A/CSTC-A each have responsibilities for development of the ANP logistics
sustainment capability and have published orders and documents to that effect, ISAF has not
developed a plan to ensure that the efforts of both commands to develop a sustainable ANP
logistics capability are fully coordinated and integrated. Without such a plan, there is no way to
ensure that unity of effort is achieved in the use of ISAF resources and that they are leveraged
effectively.

U.S. Army doctrine in FM 3-24 requires a thorough mission analysis of logistical requirements
to determine the scope of effort for logistics operations and support. The ANP Plan of 2010
recognizes a requirement for coordination and interoperability with both the ANA and Coalition


                                                69
organizations for logistical sustainment. IJC and NTM-A/CSTC-A are each working to
accomplish this, yet their actions are not yet fully integrated and coordinated with each other or
with MoI/ANP via a published ISAF ANP logistics development plan. This occurred because
IJC is a relatively new command, only recently gaining responsibility for development of the
fielded ANP forces. Furthermore, initial emphasis was on developing the operational capability
of the ANP. ANP logistics development has only recently become a priority for NTM-A/CSTC-
A and IJC as fielding plans proceeded to the point where enabling organizations and issues could
be addressed.

It was not unusual to find U.S./Coalition logistical mentor/trainers from both IJC and
NTM-A/CSTC-A mentoring the same ANP commander and staff, especially at national
headquarters levels and at MoI in Kabul. ISAF, ICW IJC and NTM-A/CSTC-A, has not
published any guidance, which would flow from having a logistics plan, regarding how
mentors/trainers are to jointly coordinate and develop ANP logistics capability from the MoI
level out through the logistics infrastructure in the fielded ANP organizations.

Recommendations
21. Commander, International Security Assistance Force/U.S. Forces-Afghanistan, in
coordination with the International Security Assistance Force Joint Command, the North
Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan, and the Ministry of Interior:
  a. Develop and publish an integrated plan to develop the logistics capability of the Afghan
Uniformed Police forces at the region/province/district, the Afghan Border Police at
zone/brigade/kandak, and the Afghan National Civil Order Police at brigade/kandak.
  b. Issue guidance to Coalition logistics mentors/trainers as to how the plan should be
implemented.



Management Comments
ISAF concurred. ISAF recently requested, and the Joint Staff approved, deployment of a team to
assess the ANP strategy and assist in the development of a comprehensive three year plan, in
coordination with the MoI. This effort will include implementation direction.

Our Response
ISAF comments were responsive. We request that ISAF provide a copy of the three year plan to
OIG once it is developed and approved, along with a copy of the implementation directives.




                                               70
Observation 22. Oversight of U.S. Supplied Equipment
ISAF, including IJC and NTM-A/CSTC-A, does not have a reliable system to ensure oversight
of U.S.-supplied equipment and supplies, including weapons.

This occurred primarily because the MoI does not have a viable property accountability system
established across the ANP. ISAF oversight of this system has been insufficient to know
whether it is achieving its purpose or not. Additionally, the mentoring/training of ANP
counterparts at all levels of the logistical system on effective accountability and control measures
has been insufficient. Moreover, NTM-A/CSTC-A and IJC only have mentors/trainers
embedded/partnered with 97 of the 365 ANP police districts who can assist/teach/enforce
property accountability.

This has resulted in a loss of visibility over a significant number of U.S. supplied weapons,
vehicles, and other supplies and equipment. Lack of an effective oversight system could also
lead to unnecessary loss and corruption, reduced operational readiness, and undermines the
integrity and capability of the ANP logistical system.

Applicable Criteria (See Appendix C, Number 7, 10, 14, 15, 17, 18, 23, 27, and 28, for
additional details.)
   • Center for Army Lessons Learned Handbook 10-08, “Partnership: Development of
       Logistics Capabilities,” November 2009.
   • CSTC-Fragmentary Order 09-043, DTG 081403ZMAR 09, SUBJ: Verification of
       Monthly Afghan National Security Force (ANSF) Compliance With 100 Percent
       Weapons Serial Number Inventory.
   • DOD Instruction 4140.66, “Registration and Monitoring of Defense Articles,” October
       15, 2009.
   • DOD Instruction 5000.64, “Accountability and Management of DoD-Owned Equipment
       and Other Accountable Property,” November 2, 2006.
   • DOD 4140.1-R, “DOD Supply Chain Material Management Regulation,” May 23, 2003.
   • IJC Operation Order OMID 1390 001-2010, “ISAF Joint Command Operations in
       Afghanistan – Annex R-Logistics; Appendix 1-Summary of Logistics Sustainment.
   • MoI Logistics Management Directorate, “Process for the Management of Logistics,”
       January 6, 2009.
   • Title 22 U.S.C. § 2403: U.S. Code--Section 2403: Definitions. Defines "defense article"
       in subsection (d) (3).
   • Title 40 U.S.C., section 524, requires accountability and control over U.S. Government
       property.

Discussion
IJC and NTM-A/CSTC-A have not developed an integrated system that provides for oversight
and accountability across the institutional and operational spectrum of the ANP with respect to
U.S./Coalition provided equipment, to include weapons.




                                                71
Accountability and control requirements for distribution of U.S. provided material to
Afghanistan encompasses multiple levels of the Coalition and MoI supply chain, including in-
country distribution to the national level ANSF supply system and final distribution and issue to
the Afghan army and police end users.

Annex R-Logistics, of Commander, IJC operations order OMID 1390 001-2010, states the end-
state is “ANSF performing all material and logistical needs on their own….” and tasks ANSF to
“improve the accountability of their assets and supplies.” Appendix 1-Summary of Logistics
Sustainment states, “ANSF equipment fielding will be closely coordinated with IJC and
CSTC-A”.

The MoI Logistics Management Directorate, “Policy for the Management of Logistics,” signed 6
January 2009, includes the following key accountability statements:
   • All leaders and commanders will develop procedures and check sheets that provide
       visibility and accountability of resources within their unit or organization,
   • All materiel, except real property, will be classified for accounting purposes as equipment
       or supplies--equipment will require formal property book accounting at the user level,
   • Equipment and materiel must be inventoried at least annually,
   • Inventories must be reconciled with property records and discrepancies resolved,
   • Asset visibility is established through the use of stock records and property books,
   • In addition to unit and activity property books, logistics managers will establish Stock
       Record Accounts for property in storage at warehouses and supply points awaiting issue
       to organizations/units and staff departments,
   • Equipment and supplies in storage awaiting issue to supported units or turn-in to higher
       level supporting units will be completely inventoried quarterly, and
   • At the user level, all on hand materiel carried on property book records and/or hand
       receipt records will be inventoried quarterly, or upon change of primary hand receipt
       holder.

In addition, the MoI “Policy for the Management of Logistics,” dated 6 January 2009, requires a
monthly serial number inventory of ANP weapons and reconciliation with property books.
CSTC-A issued FRAGO 09-043, DTG 081403ZMAR 09, SUBJ: “Verification of Monthly
Afghan National Security Force (ANSF) Compliance With 100 Percent Weapons Serial Number
Inventory,” issued in parallel with the MoI decree, directed CJTF Phoenix (an organization now
deactivated) mentors/trainers to verify that the 100 percent serial number inventory of weapons
was completed by their ANSF counterparts and to then ensure that they conduct a separate
monthly 10 percent inventory of ANSF weapons thereafter.

However, NTM-A/CSTC-A and IJC only have enough trainers to partner with approximately
one third of the 365 police districts and associated zones/regions/provinces, complicating the
equipment accountability issue. Furthermore, disregard of accountability and control procedures
by senior ANP commanders/police chiefs and lack of sustained MoI enforcement of these
procedures has led to loss/theft/diversion of U.S.-supplied material and equipment.

NTM-A/CSTC-A has a spread sheet that identified all of the weapons and equipment issued to
the ANP in Kandahar Province. However, this documented only type and quantity of weapons


                                               72
and equipment issued and did not identify who on the part of the ANP received/signed for the
weapons and equipment. The Command understood that further adjustments were necessary in
order to provide effective oversight of U.S-supplied material and equipment.

NTM-A/CSTC-A, with IJC assistance, has recently conducted inventories of ANP equipment in
RC-S and was working with MoI to establish a new inventory baseline, documented in property
books.

In addition, this effort is being broadened to establish baseline accountability for all U.S-
procured equipment transferred to the ANP. Based on previous OIG/SPO visits and reporting,
the OIG team noted recent significant progress by NTM-A/CSTC-A and MoI at 22 Bunkers, the
ANP national weapons and ammunition depot. The Afghan-ran system at 22 Bunkers provides
an example of effective national level accountability and control procedures for issuance of
weapons to the ANP, stored in regularly cross-checked automated property books, documented
by serial number and tracked down to province level.

Recommendations
22. Commander, International Security Assistance Force/U.S. Forces-Afghanistan, in
coordination with the International Security Assistance Force Joint Command, the North
Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan, and the Ministry of Interior:
  a. Develop a plan for a 100 percent joint U.S./Afghan inventory of U.S.-procured
equipment issued to the Afghan National Police in order to establish baseline accountability
documented in U.S. and Afghan property books.
   b. Develop and implement a plan to ensure that Coalition Force and the Ministry of
Interior/Afghan National Police have visibility over the transfer of equipment and weapons
down the supply chain; establish a clear chain of custody and accountability--by serial number,
especially in the case of sensitive items such as weapons.
  c. Re-issue as an International Security Assistance Force FRAGO the Combined Security
Transition Command-Afghanistan FRAGO 09-043 requiring mentors/trainers to conduct
monthly 10 percent inventories of Afghan National Police weapons.
22. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan:
  d. Mentor/support the Ministry of Interior to organize and deploy survey teams to districts
where Coalition Force partners are not established to conduct a baseline inventory of
U.S.-provided equipment, especially weapons, and ensure property book accountability is
maintained on an ongoing basis.
  e. Mentor the Minister of the Interior to reissue and enforce previous instructions to the
Afghan National Police requiring 100 percent monthly inventories of weapons by serial
number and quarterly inventories of sensitive and pilferable items, such as vehicles, radios,
generators, rations, and clothing.




                                                73
Management Comments
ISAF concurred with Recommendations 22.a, b, and c. ISAF is working with IJC and
NTM-A/CSTC-A on several inventory efforts with the Ministry of Interior, which are focused on
achieving baseline accountability through documented U.S. and Afghan property books. The
ability to have complete and full visibility over the transfer of equipment and weapons down the
supply chain and establish clear chain of custody and accountability by serial number is at risk.
This is due to key logistics billets not being filled with correct skill-sets, as stated in our
personnel requirements and authorization documents.

NTM-A/CSTC-A concurred with comments to Recommendations 22.d, and e. NTM-A/CSTC-A
lacks adequate resources to implement this recommendation with the biggest challenge being
lack of connectivity and automation tools to quickly reconcile property books. Automation is
currently being addressed, to include MoI network connectivity to the RLCs and PSPs.
Additionally, the MoI Logistics Advisor Team has developed a new Logistics Readiness Tool
(LRT) that is to be fielded in the next 45 days to automate all move, shoot, and communicate
asset inventory and status reporting. The Logistics Advisor Teams will reinforce the 100 percent
monthly inventory policy in conjunction with IJC partners to ANP units.


Our Response
ISAF and NTM-A/CSTC-A comments were responsive. OIG recognizes the shortages in
personnel resources/skill sets and has partially addressed this issue with Observation/
Recommendation 5 of this report. We request that ISAF provide a status update in six months on
efforts to establish a baseline accountability of equipment supplied to the ANP by the U.S, per
Recommendations 22.1 and 22b. We also request that ISAF provide a copy of the FRAGO
discussed in Recommendation 22.c. We also request a six-month update by NTM-A/CSTC-A
on the status/effectiveness of the new Logistics Readiness Tool, as well as the status of MoI
survey teams discussed in recommendation 22.d, and a copy of the reissued MoI guidance
discussed in Recommendation 22.e.




                                               74
Observation 23. Afghan Uniformed Police Present for Duty
Strength in Regional Command-East
The AUP present for duty strength in some high threat districts in RC-E reportedly fell
significantly below levels of assigned strength. Moreover, AUP personnel that were on-hand
were being used to provide security for GIRoA officials and infrastructure, further reducing
police capability to perform their core mission in key districts/precincts.

This occurred because the AUP personnel assigned in these high threat districts were not present
for duty because of training, leave, assignment to non-police duties, or were absent without
leave.

The shortfall in present for duty strength vice assigned strength, aggravated by assignment of
AUP to what appears to be non-core policing duties, could degrade effectiveness of these forces
in focusing on the security and policing needs of the population and undermine Coalition/GIRoA
efforts to establish stability and effective governance.

Applicable Criteria (See Appendix C, Number 18, for additional details.)
   •   IJC Operation Order Omid 1390 001-2010, App. 2 to Annex G, ANP Growth and
       Development, 9 Oct 2010

Discussion
According to ANP commanders and mentors in RC-E, the AUP present for duty strength often
fell significantly short of assigned strength. Some districts reported having an average of 50
percent of their assigned police strength present for duty. Additionally, AUP personnel were
reportedly being assigned to conduct secondary missions, such as providing VIP security or
protecting GIRoA infrastructure, instead of focusing on their primary mission to support the
security and policing needs of the population.

Factors contributing to low present for duty strength include:

   •   Assigning newly recruited AUP personnel against district/precinct strength while they
       undergo initial/basic police training,
   •   Extended periods of leave, and
   •   Absent Without Leave (AWOL).

Furthermore, the ongoing elimination of many private security companies has caused AUP
leaders and CF mentors/trainers concern that the AUP will have to comply with additional
requests by Afghan leaders to protect GIRoA officials and facilities in RC-E. This would further
reduce the police presence and capabilities in KTDs and AOIs that are already under-staffed.

Given the criticality of KTDs and AOIs in RC-E, the OIG team believes that AUP present for
duty strength must be maintained at or near 90 percent of assigned strength levels in these high-
threat districts. Additionally, should the AUP be assigned duties beyond their core functions, the
need for additional police personnel to perform these duties should be factored in to the analysis
of the overall ANP requirement and the development of the SY 1390 Tashkil. (See Observation
2.)


                                                75
Recommendations
23. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the International
Security Assistance Force Joint Command:
   a. Assist the Ministry of Interior to manage the present for duty strength in Key Terrain
Districts and Area of Interest districts in Regional Command-East at a level appropriate to the
threat.
  b. Mentor the Minister of Interior to direct Afghan Uniformed Police Chiefs to eliminate/
minimize use of personnel for missions outside of the MoI-approved mission set.
  c. Commander, International Security Assistance Force Joint Command, direct Coalition
Force mentors to monitor and report assignment of Afghan Uniformed Police personnel to
duties outside of the MoI-approved mission set to the Coalition Force chain of command.



Management Comments
This observation was originally written as an assigned strength issue in RC-E. NTM-A/
CSTC-A non-concurred with the recommendations, providing data that indicated that assigned
strength was sufficient. The issue was present for duty strength.

Our Response
Based on the management comments received on the draft report, OIG has rewritten this
observation for the final report to focus on “present-for-duty” shortfalls vice assigned strength
shortfalls as the primary condition warranting an observation and recommendations. NTM-A/
CSTC-A has reviewed the rewritten observation/recommendations and has concurred with the
rewritten observation and recommendations. If ISAF, NTM-A/CSTC-A, or IJC have any
additional comments on these rewritten recommendations, we ask that they respond in the final
report.




                                                76
Observation 24. Pay for Afghan Border Police in Regional
Command-East
ABP personnel in RC-E are not being paid on a consistent basis, according to U.S. mentors/
trainers. The ABP pay process has proven erratic and unreliable.

ABP kandaks often operate in remote geographic locations, which become even less accessible
during bad weather. As a result of a lack of an established system of banks in RC-East to
support an electronic pay system for the ANP, the ABP often have to be paid using roving
paymasters, travelling for extended distances over difficult and dangerous terrain. Furthermore,
cash payments provide opportunities for exploitation of police pay, which has been a long
standing problem.

The inconsistent pay system has a negative effect on ABP morale, according to CF mentors, and
could result in higher attrition and low-level corruption.

Applicable Criteria (See Appendix C, Number 4 and 13, for additional details.)
   •   Army Field Manual 3-24, “Counterinsurgency,” December 2006.
   •   DOD Instruction 3000.05, “Stability Operations,” September 16, 2009.

Discussion
According to CF mentors/trainers, ABP personnel in RC-E, a high-threat border, are not
receiving their pay on a consistent basis, reportedly due to lack of banking facilities, difficult
geographic access, and other factors.

Among the challenges to providing ABP personnel their pay are their geographically remote
base locations in RC-E and the security risk in travelling there. The ABP bases include the
frontier with Pakistan which has poor road access and which are made inaccessible by weather
conditions in the winter.

The inability of the ABP to regularly pay their patrolmen has been compounded because an
electronic pay system is not yet available in some of more austere districts along the
Afghanistan/Pakistan border in RC-E. Availability of air assets to transport payroll personnel
causes further unpredictability. Additionally, cash payments to ABP personnel often necessitate
extensive and time-consuming travel through dangerous areas to deliver funds to family
members.

Furthermore, cash payments are apt to encourage corruption at various levels in the chain of
command, further delaying/diverting/diluting ABP pay, causing associated morale and attrition
problems. Not receiving pay for protracted periods can also promote corruption on the part of
the individual policeman, who may feel the need to obtain money for his family through
solicitation/acceptance of bribes.

These issues not-withstanding, the MoI, with assistance from the Coalition, has the responsibility
to ensure ABP personnel receive their pay on a periodic and predictable basis.




                                                  77
Recommendations
24. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the Ministry of
Interior:
  a. Expedite implementation of electronic pay procedures and/or ensure pay agent or other
procedures result in consistent delivery of salaries.
  b. Determine whether this problem exists with Afghan Border Police units in other regions
and apply appropriate corrective actions.



Management Comments
NTM-A/CSTC-A concurred. NTM-A/CSTC-A continues to work with ISAF and the
U.S. Embassy to implement electronic pay procedures. They need significant help from
organizations outside NTM-A/CSTC-A and MoI to implement banking reforms that will allow
greater use of Electronic Funds Transfer (EFT) to pay the ANP. NTM-A/CSTC-A is looking at
a three-phased approach to address pay of ANP members that includes leveraging existing ANA
processes, banking agreements, and working on banking infrastructure. NTM-A/CSTC-A has
determined that this issue is common to all ABP.


Our Response
NTM-A/CSTC-A comments were responsive. We request an update in six months on the
percentage of ABP enrolled in the EFT system.




                                              78
Observation 25. Afghan National Police District and Precinct
Facilities
District and precinct headquarters facilities were in deplorable condition in some locations,
including in KTDs.

This occurred because of two primary factors:
       • Many existing locations appear to have no standardized design, footprint, or
           amenities beyond the most basic walled compound and a few deteriorating offices,
           and they were constructed many years ago.
       • Lower level district/precinct facilities of the MoI bureaucracy have been traditionally
           underfunded, with little to no discernable operations and maintenance funds for
           routine sustainment.

The often deplorable conditions with regard to security, sanitation, and electrical power limit the
effectiveness of command, control, and operations and degrade morale. Moreover, this presents
an unprofessional image of the local police to the population and undermines police credibility.

Applicable Criteria (See Appendix C, Number 20, for additional details.)
   •   Joint Publication 3-07.1, “Joint Tactics, Techniques, and Procedures for Foreign Internal
       Defense,” 30 April 2004.

Discussion
Many district and precinct facilities at sites visited were badly in need of renovation, including
police facilities located in districts/precincts considered to be high threat.

The deficiencies observed were many. For example, there was no useable space within district
and precinct police headquarters facilities to secure evidence or temporarily incarcerate
detainees. Externally, the security protection needed upgrading to be able to protect against
attack by insurgents.

Although the need to improve quality of police facilities was heartily recognized by local
officials, local Afghan AUP commanders seemed powerless to improve their basic facility due to
insufficient funds. They reported having insufficient influence over the use of available funding
with senior levels of police command.

The upgraded appearance and functionality of districts and precincts in KTDs, in particular,
would improve police morale and convey an enduring commitment to secure the local
community and an enhance GIRoA support. Small local renovation contracts to improve district
and precinct stations could also provide local employment for construction, and enable the
population to have a stake and greater pride in their security force.




                                                 79
Acknowledgement of these infrastructure conditions appears to be reflected in increased future
ASFF funding. 19 Regional and provincial facilities, institutional capacity and special programs
are being addressed, including district and precinct headquarters. What remains unclear is the
specificity (by name locations) of the targeted districts and precincts for facility upgrade and the
priority and timeframe in which renovations might occur.

Based on recommendations from IJC and its mentors with the ANP, an accelerated facilities
renovation program focused on priority districts and precincts in the COIN fight would provide
visible evidence of progress. Discussions with NTM-A resource management staff indicated that
the cost to upgrade selected AUP facilities in key districts would be supportable. However, first
IJC would need to identify its priorities.

Recommendation
25. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the International
Security Assistance Force Joint Command, identify district/precinct headquarters that are not
up to a reasonable physical standard and direct funding towards their improvement. Ensure
that this initiative is incorporated in appropriate spending plans, in accordance with command
priorities.



Management Comments
NTM-A/CSTC-A concurred. NTM-A/CSTC-A and IJC already employ a variety of methods to
identify facilities that require improvements: Focused District Development (FDD) site
assessments conducted by the FDD mentors, facilities investigations/assessments conducted by a
contractor, input from the Battle Space Owner, brigade engineers, and task force commanders.
Coalition Forces and Provincial Reconstruction Teams (PRTs) are also used to feed input back to
NTM-A/CSTC-A. After consolidating the inputs, projects have been/will be programmed and
executed.


Our Response
NTM-A/CSTC-A comments were responsive. No further comments are required.




19
  Office of Secretary of Defense Department of Defense Budget Fiscal Year 2011: Justification for FY 2011
Overseas Contingency Operations – Afghanistan Security Forces Fund (ASFF), dated Feb 2010, Section IV Budget
Activity: Interior Forces (Afghan National Police) pages 42 and 43 (Infrastructure and District Headquarters).


                                                      80
Observation 26. North Atlantic Treaty Organization Training
Mission-Afghanistan/Combined Security Transition
Command-Afghanistan Anti-Corruption Staff
Given the ISAF Commander’s priority emphasis on anti-corruption, NTM-A/CSTC-A
anti-corruption staff was inadequate to play a meaningful role.

The establishment of a sufficient anti-corruption capability intrinsic to the NTM-A/CSTC-A staff
was a relatively new initiative, based on the expanded ISAF role in the overall anti-corruption
effort. Mission analysis of these expanded responsibilities by NTM-A/CSTC-A was underway
but not complete.

The shortage of anti-corruption staff could inhibit the ability of NTM-A/CSTC-A to accomplish
its roles and responsibilities delineated in the ISAF and NTM-A/CSTC-A anti-corruption plans.

Applicable Criteria (See Appendix C, Number 9, 19, and 23, for additional details.)
   •   Combined Security Transition Command – Afghanistan, “Campaign Plan for the
       Development of Afghan National Security Forces,” September 20, 2008.
   •   ISAF Fragmentary Order 498-2009, “Anti-Corruption,” DTG 051040D, D + 30 Oct 09,
       (classified document).
   •   NTM-A/CSTC-A Fragmentary Order 10-263, “Anti-Corruption Action Plan,” Effective
       231400D Jul 10, (restricted document).

Discussion
As the lead for ISAF anti-corruption efforts within the ANSF, the NTM-A/CSTC-A staff
responsible appeared to be insufficient to perform its critical role in support of the ISAF anti-
corruption campaign.

Providing adequate personnel to the NTM-A/CSTC-A anti-corruption staff is paramount to both
ISAF’s and NTM-A/CSTC-A’s ability to have an impact on curbing the corruption still prevalent
within the MoI/ANP. As stated in ISAF Operations Plan 38302, “the failure of GIRoA to
marginalize malign actors and address governmental corruption posses a high risk to mission
success”.

NTMA-A/CSTC-A campaign plan states that “Corruption within government institutions poses
the most dangerous threat to the long term development of a professional ANSF, and, ultimately,
to the effectiveness of governance.” The ISAF command and staff underscored the importance
of reducing corruption and the key role of the government and security forces. They maintained
that, while corruption cannot be totally eliminated, the goal is to reduce it to a level where the
Afghan people see their government as legitimate.

The NTM-A/CSTC-A anti-corruption mission includes:
   • Leading the ISAF anti-corruption efforts within the ANSF,
   • Coordinating unity of command needed within ISAF and the ANSF to address
      corruption,



                                                 81
   •   Assisting the Afghan Major Crimes Task Force to coordinate, develop, and submit cases
       of corruption to the Afghan High Office of Oversight that has the responsibility to
       coordinate anti-corruption across the entire Afghan government and to develop anti-
       corruption plans and policies across the various Afghan ministries,
   •   Coordinating with the MoD and MoI in developing cases of corruption for submission to
       the Afghan Attorney General for prosecution, and
   •   Coordinating NTM-A/CSTC-A anti-corruption POIs and training MoI/ANP and
       MoD/ANA.

The additional personnel required to provide NTM-A/CSTC-A a sufficiently robust anti-
corruption staff will also enable it to significantly enhance its support for the recently developed
Law Enforcement and Corruption Commission, which is made up of members from the
European Union Police, the U.S. Federal Bureau of Investigation, and the office of the MoI
Inspector General. The commission has had several recent successes prosecuting or removing
corrupt police officials. An enhanced NTM-A/CSTC-A staff to mentor the MoI and ANP, and
the MoD and ANA, would also provide the capability to leverage better interagency and
international anti-corruption organizations and produce significant dividends.

Recommendation
26. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, build the anti-corruption staff to
provide a capability that adequately supports the International Security Assistance Force anti-
corruption mission.



Management Comments
NTM-A/CSTC-A non-concurred. The current manning and expected future manning of the
Anti-Corruption Office adequately supports the International Security Assistance Force
anticorruption mission. Merely building an Anti-Corruption staff is not sufficient to address this
problem. NTM-A/CSTC-A focuses the entire command on stewardship and accountability.
NTM-A/CSTC-A has developed and will develop [anti-corruption] methods across the command
that remove the opportunity for corrupt behavior instead of only building the capacity to respond
to it.

Our Response
NTM-A/CSTC-A comments were responsive. While we remain concerned about the relative
personnel strength of the NTM-A/CSTC-A anti-corruption office to support ISAF’s high priority
for the program, we accept management’s analysis and acceptance of the associated risk. We
will look at this issue again in future assessments. No further action is required.




                                                 82
Observation 27. Ministry of Interior Inspector General
Investigations
NTM-A/CSTC-A IG/Staff Judge Advocate/Anti-Corruption Offices have not been tracking
corruption cases substantiated by MoI IG investigation to gain visibility and the capacity to
provide follow-up mentor support, when appropriate.

This occurred because NTM-A/CSTC-A has yet to develop, in coordination with the MoI IG, a
process to track case progress and administrative or legal action, if any, taken against senior
MoI or ANP officials who have had allegations of corruption substantiated by the MoI IG or
other investigative authorities.

As a result, it has not been possible to determine whether the Minister of Interior and Afghan
Attorney General have taken appropriate action against senior MoI/ANP officials who have been
the subject of repeat allegations or to monitor what disciplinary actions have been taken against
them.

As a consequence, CSTC-A and MoI investigative authorities have not had the data analysis to
define and report the extent of the anti-corruption problem and additional measures that need to
be taken to address it.

Applicable Criteria (See Appendix C, Number 12, for additional details.)
   •   DOD Inspector General Report No. SPO-2009-007, “Assessment of U.S. and Coalition
       Plans to Train, Equip, and Field the Afghan National Security Forces,” September 30,
       2009.

Discussion
Neither NTM-A/CSTC-A IG, the Staff Judge Advocate, nor the Anti-Corruption Office have
been tracking corruption cases substantiated by MoI IG investigations to gain visibility and the
ability to provide follow-up support, when appropriate. This is a repeat observation from
DODIG Report No. SPO-2009-007, dated September 30, 2009. The CSTC-A Commander
concurred with the recommendation, noting that the issue would require a concerted and
synchronized effort over time by all levels of command and in all activities of the U.S.
government effort in Afghanistan. He stated that the CSTC-A IG and SJA would actively
engage their Afghan counterparts on the issue and that CSTC-A personnel would be directed to
report suspected/alleged corruption or bribery to the CF chain of command.

An NTM-A/CSTC-A system for tracking corruption cases investigated by the MoI IG with
respect to MoI/ANP personnel and those referred to the Attorney General for prosecution would
serve to maintain understanding of the progress, or lack thereof, with respect to the MoI anti-
corruption initiative. The results of the data regarding investigations and any resulting
disciplinary action taken against MoI/ANP personnel would enable trend analysis and reporting
to the ISAF chain of command. The knowledge gained would enable appropriate mentoring
actions to support MoI anti-corruption initiatives or to refer to the interagency with respect to the
Attorney General’s office.




                                                 83
To address fraud, waste, and abuse, MoI has taken appropriate action to codify in exacting detail
policies regarding individual accountability and responsibility of MoI/ANP personnel. By
tracking progress in reducing corrupt activities, the command will be able to present ISAF and
the interagency with a clearer picture of related issues, and NTM-A/CSTC-A will be better
prepared to recommend timely corrective actions and provide historical case data and analysis
for its newly assigned staff.

Given the complexity and the reportedly pervasive nature of corruption in GIRoA, the OIG team
still believes that a database to track corruption cases is advisable, but that the responsibility to
establish and maintain such a data base more appropriately resides at the ISAF level.

Recommendation
27. Commander, International Security Assistance Force/U.S. Forces-Afghanistan, in
coordination with the Ministry of Interior and the International Security Assistance Force
Deputy J-5/Anti-Corruption office, develop a data base capable of tracking corruption cases
investigated by the Ministry of Interior Inspector General and referred to the Attorney General
for follow-up action.



Management Comments
ISAF concurred with comments, noting they do not need to independently develop such a
database. The Justice Sector Support Program is developing a case-management system. While
it may not be precisely what is required, it is indicative of the development of such systems.
ISAF will consider an inquiry into the existing systems or those currently under development
rather than starting from whole cloth on the development of a new database.

Our Response
ISAF comments were partially responsive. Using the Justice Sector Support Program case
management system, once developed and implemented, will meet the intent of Recommendation
27.a. We request that ISAF provide a six-month update on the operational status/capability of
the Justice Sector support Program case management system.




                                                 84
Observation 28. Afghan National Police Lessons Learned
Process
Lessons learned by either U.S. or other international forces mentoring/training the police have
not been systematically captured and made accessible in electronic database format.

This occurred because NTM-A/CSTC-A and its predecessor command, and current mentor
personnel, including combat units and civilian advisors, have not been required to systematically
capture and report lessons learned either during their tours or before departure. Furthermore,
neither did major U.S. army commands or NATO elements capture lessons learned from their
returning forces.

As a result, very few ANP lessons learned have been made available to be applied in current
ANP support operations, or to educate, train and prepare future military or civilian personnel
prior to their deployments to Afghanistan.

Applicable Criteria (See Appendix C, Number 6, 8, and 18, for additional details.)
      •   Army Regulation 11-33, “Army Lessons Learned Program: System Development and
          Application,” October 10, 1989.
      •   Chairman of the Joint Chiefs of Staff Notice 3150.25, “Joint Lessons Learned Program
          and Joint Lessons Learned Information System,” January 22, 2008.
      •   IJC Operation Order OMID 1390 001-2010, “ISAF Joint Command Operations in
          Afghanistan – Annex-LL Lessons Learned – NIU,” October 9, 2010.

Discussion
ANP Lessons Learned. Lessons learned have provided an invaluable resource for U.S.
military or civilian personnel involved in or supporting combat operations in both Iraq and
Afghanistan, but there is no comparable program for those working with the ANP.

This type of information is critical to improving operational effectiveness, including force
protection, and to avoid repeating costly mistakes. In the dynamic COIN environment, not
sharing lessons learned with those who need to continuously improve their effectiveness
represents perspective and effectiveness lost.

Traditionally, U.S. military services and Coalition partners have collected lessons learned from
combat operations and training exercises. Lessons learned applied to ANP development would
also have an impact at the tactical, operational, and even strategic levels.

The Center for Army Lessons Learned program “creates a system to serve in both peace and
wartime as the focal point for the collection, analysis, dissemination, and implementation of
combat relevant lessons learned which will enhance the Army’s ability to perform its
missions.” 20 Additionally, “[Major Army Commands] and designated collection agencies will
forward after action reports to the CALL within 120 days of the end of an exercise or event.” 21
Data is collected at Fort Leavenworth and presented on its website.
20
     AR 11-33, “Army Lessons Learned Program: System Development and Application,” paragraph 1-1.
21
     AR 11-33, paragraph 1-5.a.(2).


                                                     85
In addition “The Joint Lessons Learned Program provides a knowledge management process
established to enhance joint capabilities through discovery, knowledge development,
implementation, and the sharing of lessons from joint operations, training events, exercises, and
other activities. It contributes to joint capabilities integration and development, other DOD issue
resolution processes, and DOD transformation.” 22

The CALL has a detachment in Kabul with one U.S. Army 0-6 (Colonel). They also have eight
Theater Observation Detachments embedded with operational and training units collecting
information, verifying it is factual, and sending it to the CALL after vetting with local U.S.
commanders.

Search for ANP Lessons Learned. DOD has played a key role in ANP development
since 2007, but our team was unable to locate any substantive ANP lessons learned from U.S.
military or NATO sources. This included the Joint Lessons Learned Information System
website, the CALL center at Fort Leavenworth, the CALL detachment under CSTC-A, or the IJC
lessons learned office in Afghanistan.

Recommendation
28. Commander, International Security Assistance Force, in coordination with the
International Security Assistance Force Joint Command and North Atlantic Treaty
Organization Training Mission-Afghanistan/ Combined Security Transition Command-
Afghanistan, develop a plan to collect Afghan National Police lessons learned and disseminate
them in-country and to the U.S. Center for Army Lessons Learned.



Management Comments
ISAF concurred with comments. CALL collects, analyzes, disseminates, integrates, and archives
Army and Joint, Interagency, Intergovernmental and Multinational (JIIM) observations, insights,
lessons (OIL), and tactics, techniques, and procedures (TTP) to support full spectrum military
operations. The methodology involves: collection, processing of information, analysis to derive
lessons, and dissemination in a variety of media world-wide. Afghan National Police lessons
learned dissemination occurs via the CALL distribution process as well as, existing NTM-
A/CSTC-A Nonsecure Internet Protocol Router Network (NIPR), SECRET Internet Protocol
Router Network (SIPRNET), and Centrix SharePoint lessons learned sites and ISAF lessons
learned portal.


Our Response
ISAF comments were responsive. We request that IJC provide OIG a copy of/access to the
lessons learned for ANP training/development in the last six months that have been documented
in the processes described in the management comments and identify how the lessons learned are


22
   Chairman of the Joints Chiefs of Staff Notice, Joint Lessons Learned Program and Joint Lessons Learned
Information system,” paragraph 4.b.


                                                       86
distributed to NTM-A/CSTC-A mentors/trainers and IJC partnered units. We will also continue
to monitor this issue on future assessments.




                                            87
This Page Intentionally Left Blank




                88
Appendix A. Scope, Methodology, and
Acronyms
We conducted this assessment from April to November 2010 in accordance with the standards
published in the Quality Standards for Inspections. We planned and performed the assessment
to obtain sufficient and appropriate evidence to provide a reasonable basis for our observations
and conclusions, based on our assessment objectives. Site visits in Afghanistan were conducted
from August 1 to 9, 2010 and October 1 to 15, 2010.

We reviewed documents such as Federal Laws and regulations, including the National Defense
Authorization Act, Chairman of the Joint Chiefs of Staff instructions, DOD directives and
instructions, and appropriate USCENTCOM, NATO/ISAF, IJC, USFOR-A, NTM-A/CSTC-A,
and MoI guidance.

The purpose of our assessment in Afghanistan was to determine whether U.S. government, North
Atlantic Treaty Organization/International Security Assistance Force (NATO/ISAF), Coalition,
and Government of the Islamic Republic of Afghanistan goals, objectives, plans, guidance, and
resources to train, equip, and mentor the ANP are prepared, issued, operative, and relevant. We
will also determine the status of actions taken in response to recommendations made in
Department of Defense Inspector General Reports No. SPO-2009-006 and SPO-2009-007, as
they pertain to the ANP.

We also visited or contacted organizations and individuals in the U.S. and Afghanistan that are
directly responsible or advise the commanders responsible for planning and implementing the
train, advise, and assist mission for the ANP. We reviewed the programs and processes used to
develop of the ANP and spoke with U.S. and Afghan leaders and managers at all levels, ranging
from general officers, to staff officers, to training and mentor team members in the field.

The ANP assessment chronology was as follows:
April - July 2010                        Research and fieldwork in CONUS
August 1 - 10 and October 1 - 15, 2010   Fieldwork in Afghanistan
October 15, 2010                         Out Brief to IJC and NTM-A/CSTC-A
October – November 2010                  Analysis and report writing
November 2010                            Draft report issued
December 2010                            Management comments received and evaluated

Limitations
We limited our review to DOD-funded programs, NATO-funded programs, and international
donation programs supporting the Afghan National Police (ANP).

Security considerations and allotted time in Afghanistan precluded visits to province, district,
and precinct police stations in RC-S and RC-SW.

Use of Computer-Processed Data
We did not use computer-processed data to perform this assessment.


                                                89
Use of Technical Assistance
We did not use Technical Assistance to perform this assessment.

Acronyms Used in this Report
The following is a list of the acronyms used in this report.
ABP                   Afghan Border Police
ANA                   Afghan National Army
ANCOP                 Afghan National Civil Order Police
ANP                   Afghan National Police
ANSF                  Afghan National Security Forces
ASFF                  Afghan Security Forces Fund
AUP                   Afghan Uniform Police
BSB                   Brigade Support Battalion
CALL                  Center for Army Lessons Learned
C-IED                 Counter-Improvised Explosive Device
COIN                  Counter Insurgency
CPR                   Command Plan Review
CSTC-A                Combined Security Transition Command – Afghanistan
CUAT                  Commander’s Unit Assessment Tool
GIRoA                 Government of the Islamic Republic of Afghanistan
IED                   Improvised Explosive Device
IJC                   ISAF Joint Command
JMD                   Joint Manning Document
ISAF                  International Security Assistance Force
LMTT                  Logistics Military Training Team
LTV                   Light Tactical Vehicle
KTD                   Key Terrain District
MoD                   Ministry of Defense
MoDA                  Ministry of Defense Advisors
MoI                   Ministry of Interior
NATO                  North Atlantic Treaty Organization
NTM-A                 NATO Training Mission – Afghanistan
PKM                   A Russian-made Pulemyot Kalashnikova Machine Gun
PMR                   Program Management Review
POI                   Program of Instruction
RFF                   Request for Forces
RPG                   Rocket Propelled Grenade
PSP                   Provincial Supply Point
RC                    Regional Command (North, South, Southwest, West, East)



                                              90
RLC   Regional Logistics Center
ROL   Rule of Law
RTC   Regional Training Command
SY    Solar Year




                            91
This Page Intentionally Left Blank




                92
Appendix B. Summary of Prior Coverage
During the last four years, the DOD, the Government Accountability Office (GAO), the Special
Inspector General for Afghanistan Reconstruction (SIGAR), and the Department of Defense
Inspector General (DODIG) have issued a number of reports and testimony discussing the
accountability and control over munitions and other equipment provided to the ANSF and the
development of ANSF logistical capability.

Unrestricted DOD reports can be accessed over the Internet at http://www.defense.gov/pubs.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
SIGAR reports can be accessed over the Internet at http://www.sigar.mil.
Unrestricted DODIG reports can be accessed over the Internet at
http://www.dodig.mil/audit/reports.
Some of the prior coverage we used in preparing this report has included:

Department of Defense
Report to Congress in accordance with sections 1230 of the National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181), as amended, “Report on Progress Toward Security
and Stability in Afghanistan,” November 2010.

Report to Congress in accordance with section 1230 of the National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181), “Report on Progress Toward Security and Stability
in Afghanistan,” April 2010.

Report to Congress in accordance with section 1231 of the National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181), “United States Plan for Sustaining the Afghanistan
National Security Forces,” April 2010.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Progress Toward Security and Stability in Afghanistan,” June
2009.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Progress Toward Security and Stability in Afghanistan,” January
2009.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Report on Progress toward Security and Stability in Afghanistan,”
June 2008.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1231, Public Law 110-181), “United States Plan for Sustaining the Afghanistan National
Security Forces,” June 2008.




                                               93
Government Accountability Office
GAO 11-66, “Afghanistan Security: Afghan Army Growing, but Additional Trainers Needed;
Long Term costs Not Determined,” January 27, 2011.

GAO-10-842T, “Preliminary Observations on DOD’s Progress and Challenges in Distributing
Supplies and Equipment to Afghanistan,” June 25, 2010.

GAO-10-655R, “Strategic Framework for U.S. Efforts in Afghanistan,” June 15, 2010.

GAO-09-280, “Afghanistan Security: U.S. Programs to Further Reform Ministry of Interior and
National Police Challenged by Lack of Military Personnel and Afghan Cooperation,” March 9,
2009.

GAO-09-263SP, “Securing, Stabilizing, and Developing Pakistan’s Border Area with
Afghanistan,” February 23, 2009.

GAO-08-883T, “U.S. Efforts to Develop Capable Afghan Police Forces Face Challenges and
Need a Coordinated, Detailed Plan to Help Ensure Accountability,” June 18, 2008.

GAO-08-661, “Further Congressional Action May Be Needed to Ensure Completion of a
Detailed Plan to Develop and Sustain Capable Afghan National Security Forces,” June 18, 2008.

Special Inspector General for Afghanistan Reconstruction
(SIGAR)
SIGAR Audit-10-11, “Actions Needed to Improve the Reliability of Afghan Security Force
Assessments,” June 29, 2010.

Department of Defense Inspector General
DODIG Report No. D-2010-042, “DOD Obligations and Expenditures of Funds Provided to the
Department of State for the Training and Mentoring of the Afghan National Police,” February 9,
2010.

DODIG Report No. SPO-2009-007, “Assessment of U.S. and Coalition Plans to Train, Equip,
and Field the Afghan National Security Forces,” September 30, 2009.

DODIG Report No. D-2009-100, “Afghanistan Security Forces Fund Phase III – Accountability
for Equipment Purchased for the Afghanistan National Police,” September 22, 2009.

DODIG Report No. SPO-2009-006, “Assessment of the Accountability and Control of Arms,
Ammunition, and Explosives (AA&E) Provided to the Security Forces of Afghanistan,”
September 11, 2009.

DODIG Report No. SPO-2009-001, “Assessment of Arms, Ammunition, and Explosives Control
and Accountability; Security Assistance; and Sustainment for the Afghan National Security
Forces,” October 24, 2008.




                                              94
DODIG Report No. IE-2007-005/DoS Report No. ISP-I-07-34, “Interagency Assessment Of the
Counternarcotics Program in Afghanistan,” July 2007.

DODIG Report No. IE-2007-001/DoS Report No. ISP-IQO-07-07, “Interagency Assessment of
Afghanistan Police Training and Readiness,” November 2006.




                                          95
This Page Intentionally Left Blank




                96
Appendix C. Criteria—Afghan/U.S. Policy and
DOD Policy
1.   Afghanistan National Development Strategy Secretariat, “Islamic
     Republic of Afghanistan – Afghanistan National Development
     Strategy 1387-1391 (2008-2013) – A Strategy for Security,
     Governance, Economic Growth & Poverty Reduction.” This document
     reflects the commitment of the GIRoA to poverty reduction and private sector-led
     economic growth for a prosperous and stable Afghanistan by establishing the following
     goals: (1) Improved security and law enforcement, (2) Strengthened
     governance/government accountability, rule of law, and human rights, and (3) Improved
     economic and social development.

2.   Afghanistan Police Training Mission, “NCO Police Course Overview,”
     February 2010 and “Revised Basic Police Course Overview,” January
     2009. These programs of instruction establish the current training time allotted to mine
     and IED awareness.

3.   Army Field Manual 3-07.1, “Security Force Assistance,” May 1, 2009.
     This field manual provides the doctrinal guidance and direction for how U.S. forces
     contribute to security force assistance. It requires that foreign personnel cross-train on all
     types of weapons, communications, and other equipment, and skills particular to their
     unit. Personnel losses must never cause weapons, communications equipment, or
     essential skills to be lost due to a lack of fully trained replacement personnel.

4.   Army Field Manual 3-24, “Counterinsurgency,” December 2006. This
     field manual establishes doctrine/fundamental principles for military operations in a
     COIN environment. Additionally, it establishes that the most effective force requirement
     gauge is troop density, the ratio of security forces (including the host nation’s military
     and police forces, as well as foreign counterinsurgents) to inhabitants. Also, the COIN
     environment requires counterinsurgents to not only determine the kinds of weapons to
     use and how to employ them but also establish whether lethal means are desired. This
     field manual also establishes that a clear-hold-build operation should be executed in a
     specific, high-priority area experiencing overt insurgent operations and has the following
     objectives: (1) create a secure environment, (2) establish a firm government control of the
     populace and area, and (3) gain the populace’s support.

5.   Army Field Manual 3-24.2, “Tactics in Counterinsurgency,”
     April 21, 2009. This field manual establishes doctrine for tactical COIN operations at
     the company, battalion, and brigade levels. It requires the maximization of the number,
     effectiveness, and use of host nation security forces to secure and control the population
     and to prevent the insurgent’s freedom of movement. Additionally, close coordination
     and affective cooperation between the host nation (civil, police, and military), the U.S.
     counterinsurgency force, and all other Coalition partners allows the full strength of each
     to engage all levels of the insurgency.


                                              97
6.   Army Regulation 11-33, “Army Lessons Learned Program: System
     Development and Application,” October 10, 1989. This regulation
     establishes the Army Lessons Learned System which collects, analyzes, disseminates,
     and provides for the implementation of combat-relevant lessons that impact doctrine,
     training, organization, materiel, and leadership concepts and requirements. It also
     establishes a system to identify and integrate input from combat training center rotations,
     major exercises, military operations, disaster relief operations, special events unit
     initiatives, intelligence reports, historical sources, and other programs into the Army
     Lessons Learned Program.

7.   Center for Army Lessons Learned Handbook 10-08, “Partnership:
     Development of Logistics Capabilities,” November 2009. This handbook
     presents partnering considerations in developing a fundamental base for a self-sustaining
     host nation security force. Although based largely on the experiences of units deployed
     in support of Operation Iraqi Freedom from 2007-2009, the sustainment development
     ideas and concepts presented in this book are worth of consideration by any leader
     assigned the challenging task of developing host nation logistics. The information
     contained in this product reflects the actions of units in the field and may not necessarily
     be approved U.S. Army policy or doctrine.

8.   Chairman of the Joint Chiefs of Staff Notice 3150.25, “Joint Lessons
     Learned Program and Joint Lessons Learned Information System,”
     January 22, 2008. This notice highlights policy, guidance, and responsibilities for
     the Joint Lessons Learned Program and establishes the Joint Lessons Learned
     Information System as the DOD system of record. The Joint Lessons Learned Program is
     a knowledge management process established to enhance joint capabilities through
     discovery, knowledge development, implementation, and sharing of lessons from joint
     operations, training events, exercises, and other activities. It contributes to joint
     capabilities integration and development, other DOD issue resolution processes, and
     DOD transformation.

9.   Combined Security Transition Command – Afghanistan, “Campaign
     Plan for the Development of Afghan National Security Forces,”
     September 20, 2008. This document provides an overarching strategy for the
     development of the Afghan Security Forces, to include the MoD and the MoI. The plan
     aims to synchronize security sector development efforts across the Ministry of Defense,
     Ministry of Interior, CSTC-A, and the wider International Community. The plan lays out
     the guidance and the processes for security ministry and Afghan security forces
     generation and development. It also takes into account the Afghanistan National
     Development Strategy dated April 2008 and the altered circumstances since these
     agreements and strategies were conceived, including changes to the security environment.
     It is complementary to Commander, International Security Assistance Force Operations
     Plan 38302 and supports the ISAF security effects.




                                              98
10.   CSTC-A Fragmentary Order 09-043, “Subject: Verification of Monthly
      Afghan National Security Force (ANSF) Compliance with 100 Percent
      Weapons Serial Number Inventory,” March 8, 2009. This fragmentary order
      directs all subordinate elements of CSTC-A to implement measures to ensure improved
      ANSF supply discipline by confirming that the ANSF conduct a monthly 100 percent
      serial number inventory of all weapons and assisting the ANSF in its efforts to account
      for, control, and physically secure weapons.

11.   DOD Directive 1404.10, “DOD Civilian Expeditionary Workforce,”
      January 23, 2009. This document establishes the policy through which an
      appropriately sized subset of the DOD civilian workforce is pre-identified to be
      organized, trained, and equipped in a manner that facilitates the use of their capabilities
      for operational requirements. These requirements are typically away from the normal
      work locations of DOD civilians, or in situations where other civilians may be evacuated
      to assist military forces where the use of DOD civilians is appropriate.

12.   DOD Inspector General Report No. SPO-2009-007, “Assessment of
      U.S. and Coalition Plans to Train, Equip, and Field the Afghan
      National Security Forces,” September 30, 2009. This report evaluated
      whether DOD, Coalition, ISAF, MoI, and MoD goals, objectives, plans, guidance,
      operations, and resources to train, equip, field, and mentor the ANSF were prepared,
      issued, operative, and complete.

13.   DOD Instruction 3000.05, “Stability Operations”, September 16, 2009.
      This Instruction provides guidance on stability operations and will evolve over time as
      joint operating concepts, missions, and lessons learned aid in the development of DOD
      policy and assignment of responsibility for the identification and development of DOD
      capabilities to support stability operations.

14.   DOD Instruction 4140.66, “Registration and Monitoring of Defense
      Articles,” October 15, 2009. This document establishes policy, assigns
      responsibility, and sets forth procedures in accordance with section 1228 of Public Law
      110-181 to certify the establishment of a registration and monitoring system for
      controlling the export and/or transfer of defense articles to specified countries and/or to
      other groups, organizations, citizens, or residents of those countries.

15.   DOD Instruction 5000.64, “Accountability and Management of DoD-
      Owned Equipment and Other Accountable Property,” November 2,
      2006. This Instruction provides policy and procedures for DoD-owned equipment and
      other accountable property and establishes policy and procedures to comply with 40
      U.S.C., section 524. It also requires that accountable property records shall be
      established for all property purchased, or otherwise obtained, that are sensitive as defined
      in DoD 4100.39-M, “Federal Logistics Information System,” Volume 10, Table 61,
      November 2007.




                                               99
16.   DOD Instruction 5000.68, “Security Force Assistance (SFA),” October
      27, 2010. This Instruction establishes policy and assigns responsibilities regarding the
      preparation of DOD personnel and operational planning for, as well as the conduct of,
      security force assistance across the DOD. It also establishes that security force assistance
      shall encompass DOD efforts to support the professionalization and the sustainable
      development of the capacity and capability of the foreign security forces and supporting
      institutions of host countries, as well as international and regional security organizations.

17.   DOD 4140.1-R, “DOD Supply Chain Material Management Regulation,”
      May 23, 2003. This regulation implements DOD Directive 4140.1 and establishes
      requirements and procedures for DOD material managers and others who need to work
      within or with the DOD supply system.

18.   IJC Operation Order OMID 1390 001-2010, “ISAF Joint Command
      Operations in Afghanistan” – Annex G, Appendix 2 (Classified) and
      Annex-LL (Lessons Learned – NIU) (Unclassified), October 9, 2010.
      Annex G, Appendix 2 is classified. Annex LL is the authoritative document regarding
      the management of the IJC’s Lessons Learned process, which captures, collects, and
      wherever possible, analyzes and disseminates among CF the Battlefield Observations,
      Lessons Learned, and Good/Best Practices.

19.   ISAF Fragmentary Order 498-2009, “Anti-Corruption,” DTG 051040D,
      D+30 Oct 09. This is a classified document.

20.   Joint Publication 3-07.1, “Joint Tactics, Techniques, and Procedures
      for Foreign Internal Defense,” 30 April 2004. This document sets forth
      doctrine and selected Joint tactics, techniques, and procedures to govern the joint
      activities and performance of the Armed forces of the United States in joint operations
      and provides the doctrinal basis of interagency coordination and U.S. military
      involvement in multinational operations. Page V-27, para 10.d(4) states “Tailor the
      proper types of equipment maintenance and training sustainability packages to the needs
      of the Host Nation.”

21.   MoI Affairs, Department of Strategy, “Police Plan for SY 1389,” March
      2010. This Police Plan provides operational planning guidance for the continued
      development of MoI operational capability to meet the current and future challenges of
      stabilization, civil order, law enforcement, and security of Afghanistan.

22.   MoI Afghan National Police Strategy, March 2010. This document provides
      strategic guidance for the continued development and operational capability of the MoI to
      meet the current and future challenges of stabilization and security of Afghanistan. It is
      the second in the series of strategic planning documents and is followed by the “Police
      Plan for SY 1389.” The strategy specifies the objectives for the continued development
      of the police, law enforcement activities, and associated systems.




                                              100
23.   MoI Logistics Management Directorate, “Process for the Management
      of Logistics,” January 6, 2009. This MoI policy introduces NATO/U.S. military
      doctrine and structure to the logistical support and sustainment of the ANP. It establishes
      common procedures, formats, forms, and time standards for the logistics management
      processes of the MoI and movement of logistic information between supporting and
      supported organizations and activities. It also details the establishment of an Authorized
      Stockage List for Regional Logistics Centers or Provincial Supply Points. An initial
      Authorized Stockage List for any supply class or group except spares may be created by
      using Tashkil documents and supported soldier density.

24.   MoI Surgeon General, “ANP Medical Support Doctrine.” This document
      describes the ANP medical support process to care for wounded ANP soldiers, including
      medical logistics, ground and air medical evacuation, medical treatment, and provision of
      medical personnel.

25.   NTM-A/CSTC-A Fragmentary order 10-263, “Anti-Corruption Action
      Plan,” Effective 231400D Jul 10. This is a restricted document.

26.   NTM-A/CSTC-A training requirements: Combined Joint Statement of
      Requirements (CJSOR) V.10 (RFF Plan B) Confidential NOFORN,
      Titled: Analysis of Unfilled Requirements, 12 Oct 10. This is a classified
      document.

27.   “Report on Progress Toward Security and Stability in Afghanistan –
      Report to Congress in accordance with sections 1230 of the National
      Defense Authorization Act for Fiscal Year 2008 (Public Law 110-81),as
      amended” November 2010. This report is an update on progress toward security
      and stability in Afghanistan from April through September 2010. It states that the MoI
      remains assessed as not being able to accomplish its mission without significant Coalition
      assistance. Of the 25 Ministerial Development Areas assessed, seven departments are able to
      accomplish their mission, with only some Coalition assistance. Of the 18 remaining
      ministerial development areas, two departments are assessed as existing but not able to
      accomplish their mission and 16 are assessed as not being able to accomplish their mission
      without significant Coalition assistance. Since March 2010, the ANP has sustained growth
      ahead of monthly objectives. Current ANP end-strength through August 2010 is 119,639 –
      exceeding the 2010 goal of 109,000. However, without further significant improvement in
      recruiting and retention, the ANP goal of 134,000 for November 2011 will not be met. ANP
      logistics capabilities are not as well-developed as ANA logistics, due in part to the focus on
      COIN operations. With some of the focus shifting to governance and development functions,
      the ANP/MoI has received more attention. To leverage capabilities of the ANA,
      NTM-A/CSTC-A is working jointly with the MoI and MoD in the development of a standing
      Cross Ministry Service Agreement where the overarching aim is to create an integrated
      National Logistics System.




                                               101
28.   Title 22 U.S.C. § 2403: U.S. Code--Section 2403: Definitions. Defines
      "defense article" in subsection (d) (3) to include, among other things:

                       any machinery, facility, tool, materiel supply, or other item
                       necessary for the manufacture, production, processing repair,
                       servicing, storage, construction, transportation, operation, or use
                       of any article listed in this subsection.


29.   Title 40 United States Code, section 524. Title 40 U.S.C.,
      section 524, requires accountability and control over U.S. Government
      property. It states:

               (a) Required. Each executive agency shall –

                    (1) maintain adequate inventory controls and accountability systems for
      property under its control.




                                                     102
Appendix D. Organizations Contacted and
Visited
We visited, contacted, or conducted interviews with officials (or former officials) from the
following NATO, U.S., and Afghan organizations:

United States
Department of Defense
   Office of the Secretary of Defense
   •   Deputy Assistant Secretary of Defense, Afghanistan, Pakistan, Central Asia Policy
       (DASD APC)
   Joint Staff
   •   Deputy Director, Regional Operations, J-3
   •   Director, Pakistan/Afghanistan Coordination Cell

Other Organizations/Individuals
   •   Selected Staff Members, Senate Armed Services Committee
   •   Senior Fellow, Institute for the Study of War
   •   Lead spokesman on British Operations in Afghanistan
   •   Joint Operations Analysis Officer, Institute for Defense Analyses
   •   Kim T. Adamson Chair of Insurgency and Terrorism, Marine Corps University
   •   Former Commander of the Combined Security Transition Command-Afghanistan

Afghanistan
   •   European Union Police key staff members
   U.S. Embassy
   •   Coordinating Director, Rule of Law and Law Enforcement
   •   Officials assigned to the International Narcotics and Law Enforcement Affairs Bureau

   U.S. Central Command
   •   Commander, International Security Assistance Force/U.S. Forces–Afghanistan/key staff
       -- J2
       -- J3
       -- J5
       -- Director of Task Force 2010
   •   Commander, International Security Assistance Force Joint Command and key staff
       -- Deputy Chief of Staff, Plans and Programs
       -- Stability Operations
       -- Future Operations


                                               103
        -- ANSF Development Assistance Bureau
        -- Development Cell-Commander’s Unit Assessment Tool (CUAT)
        -- Commander, RC-C/Gazi Military Training Center
        -- Commander, RC-N
             Police Operational Mentor and Liaison Team—Meymaneh
             Brigade Support Battalion, 1/10 Mountain Division
        -- Commander, RC-E/Combined Joint Task Force 101 (Bagram) and key staff
             Task Force Sheriff
             Brigade Support Battalion, 3/101 Airborne Division (Air Assault)
             Commander, 615th MP Company, 95th MP Battalion
        -- RC-S Future Plans/Force Development
        -- RC-SW ANSF Development Assistance Bureau
        -- RC-SW CJ7/Engineers
        -- Commander, Helmand Province Partner Team
    •   Commander, Combined Security Transition Command–Afghanistan and key staff
        -- Deputy Commander-Police Development
        -- Commander, Combined Training Advisory Group—Police
        -- Staff CJ1 through CJ8, Security Assistance Office, Surgeon, and Programs
        -- MPRI mentors
        -- Commander, Regional Support Command-East
        -- Commander, Regional Support Command-South
        -- Commander, Regional Support Command-Southwest
        -- Coalition/DynCorp/MPRI trainers at Central Training Center (Kabul) and ANP
           RTCs in RC-E, RC-S, and RC-SW
    •   Commander, Joint Task Force 435

Government of the Islamic Republic of Afghanistan
Ministry of Interior
•   Minister of Interior
    -- Chief of Staff, Administration and Support
    -- Deputy Minister for Strategy and Policy
    -- Director of Logistics
    --Inspector General
•   National Police Command Center
•   Commander, Afghan National Civil Order Police (ANCOP)/key staff members
•   Commander, Afghan Border Police/key staff members
•   Commander, Afghan National Police Academy/key staff members
•   Deputy Chief of the Kabul City Police
    -- Kabul Police HQ
    -- Kabul AUP Zone 4
    -- Kabul Police Districts 8, 16, and Bagrami
•   Commander ,303rd AUP Pamir Corps (RC-N)


                                               104
•   ABP Border Crossing, Hairatan
•   Commander, 505th AUP Zone (RC-E)
    -- AUP Provincial HQ for Paktya
    -- Precinct 2, Gardez District
•   Operations Coordination Center – RC-SW
•   ANP Central Training Center at Kabul
•   ANP Regional Training Centers in RC-E, RC-S, and RC-SW
•   MoI Material Management Center
•   MoI Interim Logistics Facility
•   22 Bunkers ANP Ammunition Depot
•   ANP Regional Logistics Centers at Gardez and Kandahar




                                             105
This Page Intentionally Left Blank




               106
Appendix E. Memorandum for Vice Chairman,
Joint Chiefs of Staff




                    107
108
109
110
Appendix F. Management Comments




                   111
112
113
114
115
116
117
118
119
120
121
122
123
124
125
126
127
128
129
130
131
132
133
134
135
136
137
This Page Intentionally Left Blank




               138
Appendix G. Report Distribution
Department of State
U.S. Ambassador to Afghanistan
Assistant Secretary of State for Political-Military Affairs
Inspector General, Department of State

Office of the Secretary of Defense
Secretary of Defense
Deputy Secretary of Defense
Chairman of the Joint Chiefs of Staff
Under Secretary of Defense for Acquisition, Technology and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense, Personnel and Readiness
Deputy Chief Financial Officer
Deputy Comptroller (Program/Budget)
Deputy Assistant Secretary of Defense, Afghanistan, Pakistan, and Central Asia
Deputy Assistant Secretary of Defense, Partnership Strategy and Stability Operations*
Vice Chairman of the Joint Chiefs of Staff*
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense for Health Affairs
Assistant Secretary of Defense (Public Affairs)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy
Director, Joint Staff
Director, Operations (J-3)
Director, Strategic Plans and Policy (J-5)

Department of the Army
Secretary of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Commander, U.S. Army Forces Command
Commander, U.S. Army Materiel Command
Chief, National Guard Bureau
Chief, U.S. Army Reserve
Commander/Chief of Engineers, U.S. Army Corps of Engineers
Commander, Afghanistan Engineer Division, U.S. Army Corps of Engineers
Auditor General, Department of the Army
Inspector General of the Army

Department of the Navy
Chief of Naval Operations
Commandant of the Marine Corps



                                                139
Naval Inspector General
Deputy Assistant Secretary of the Navy (International Programs)

Department of the Air Force
Chief of Staff of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Air Force Security Assistance Center
Inspector General of the Air Force

Combatant Commands
Commander, U.S. Central Command
Commander, International Security Assistance Force/U.S. Forces–Afghanistan*
     Commander, International Security Assistance Force Joint Command*
     Commander, NATO Training Mission-Afghanistan/Combined Security Transition
     Command–Afghanistan*
Commander, Joint Contracting Command–Iraq/Afghanistan

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Intelligence Agency
Special Inspector General for Afghanistan Reconstruction

Other Non-Defense Federal Organizations
Comptroller of the United States
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman
and Ranking Minority Member
Senate Committee on Appropriations
       Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
       House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
       House Subcommittee on Government Management, Organization, and Procurement
       House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
       and Government Reform
House Committee on International Relations

*Recipient of the draft report




                                             140
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations

                                                                                                                                                Department of Defense Inspector General

             of Defense personnel, programs and operations to support the
                                                                                                                                                              400 Army Navy Drive

                  Department's mission and serve the public interest.
                                                                                                                                                            Arlington, VA 22202-4704





                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference    Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                  Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900    Unauthorized Disclosures of Classified Information
